<html>
<title> - SECURING U.S. ELECTION INFRASTRUCTURE AND PROTECTING POLITICAL DISCOURSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    SECURING U.S. ELECTION INFRASTRUCTURE AND PROTECTING POLITICAL 
                               DISCOURSE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2019

                               __________

                           Serial No. 116-28

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                        
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-662 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="46362906253335322e232a366825292b68">[email&#160;protected]</a>                                
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                Dan Rebnord, Subcommittee Staff Director
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennessee                Jody Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Justin Amash, Michigan
Debbie Wasserman Schultz, Florida    Paul Gosar, Arizona
Robin L. Kelly, Illinois             Virginia Foxx, North Carolina
Mark DeSaulnier, California          Mark Meadows, North Carolina
Stacey E. Plaskett, Virgin Islands   Michael Cloud, Texas
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2019.....................................     1

                               Witnesses

Mr. Christopher Krebs, Director, Cybersecurity and Infrastructure 
  Security Agency, U.S. Department of Homeland Security
    Oral Statement...............................................     5
Mr. Adam Hickey, Deputy Assistant Attorney General, National 
  Security Division, U.S. Department of Justice
    Oral Statement...............................................     7
Ms. Christy McCormick, Chairwoman, U.S. Election Assistance 
  Commission
    Oral Statement...............................................     8
Ms. Ellen Weintraub, Chair, U.S. Federal Election Commission
    Oral Statement...............................................    10
Mr. William F. Galvin, Secretary of the Commonwealth, 
  Massachusetts
    Oral Statement...............................................    32
Mr. Nathaniel Gleicher, Head of Cybersecurity Policy, Facebook
    Oral Statement...............................................    34
Mr. Kevin Kane, Public Policy Manager, Twitter
    Oral Statement...............................................    36
Mr. Richard Salgado, Director, Law Enforcement and Information 
  Security, Google
    Oral Statement...............................................    37

* The prepared statements for the above witnesses are available 
  at the U.S. House of Representatives Repository:  https://
  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The document listed below is available at: https://
  docs.house.gov.

  * Facebook Memo, "Hate Agents"; submitted by Rep. Hice


 
    SECURING U.S. ELECTION INFRASTRUCTURE AND PROTECTING POLITICAL 
                               DISCOURSE

                              ----------                              


                        Wednesday, May 22, 2019

                          House of Representatives,
                         Subcommittee on National Security,
                                 Committee on Oversight and Reform,
        Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Lynch 
presiding.
    Present: Representatives Lynch, Cummings, Cooper, Welch, 
Rouda, Wasserman Schultz, Kelly, Sarbanes, Hice, Jordan, Amash, 
Gosar, Foxx, Meadows, and Green.
    Also present: Representative Sarbanes.
    Mr. Lynch. The subcommittee will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    This hearing is entitled, ``Securing U.S. Election 
Infrastructure and Protecting Political Discourse.''
    I now recognize myself for five minutes to give an opening 
statement.
    Today we will examine the security of our Nation's election 
infrastructure systems, as well as how the Federal Government 
is working with private-sector partners to respond to malicious 
attempts to unduly influence public opinion, sow discord, and 
undermine confidence in our political institutions.
    The purpose of today's hearing is not to re-litigate the 
outcome of the 2016 Presidential election. Rather, our goal is 
to safeguard the fundamental democratic principles underscored 
by President Abraham Lincoln when he said that ``Elections 
belong to the people.'' Indeed, no less than the integrity of 
our democracy is now at stake.
    In January 2017, the intelligence community released an 
assessment that our democracy had come under attack by foreign 
adversaries. With high confidence, our Nation's 17 intelligence 
agencies unanimously found that ``Russian President Vladimir 
Putin ordered an influence campaign in 2016 aimed at the U.S. 
Presidential elections.'' The Russian effort included 
clandestine intelligence operations coupled with blatant 
meddling by Russian government agencies, state-funded media 
organizations, third-party intermediaries, and paid social 
media users, or trolls.
    Special Counsel Robert Mueller's report, which followed his 
nearly two-year independent investigation into Russian 
interference, confirmed and augmented the intelligence 
community's high confidence judgment. According to the Special 
Counsel, ``The Russian Government interfered in the 2016 
Presidential election in sweeping and systematic fashion.''
    Thanks to the Special Counsel, we know that Russia's 
interference campaign involved so-called ``active measures'' 
led by the St. Petersburg-based Internet Research Agency 
designed to sow discord in the U.S. through information 
warfare. Its primary components included the creation of 
fictitious social media accounts, the purchase of online ads to 
promulgate divisive political material, the deployment of 
automated bots to amplify content, and the organization of 
political rallies in the U.S. At the same time, Russia's 
military agency, the GRU, perpetrated a hacking operation 
targeting U.S. individuals, political committees, state 
election boards, state secretaries of state, county 
governments, and private manufacturers of election-related 
software and voting machines. In response to these malign 
activities, the Special Counsel criminally indicted 13 Russian 
nationals, 12 military officers, and three Russian companies.
    In its post-election review, Facebook alone estimated that 
accounts controlled by the IRA may have reached 126 million 
people prior to their deactivation in August 2017, including 
nearly 30 million Americans.
    Russian interference in U.S. elections has continued beyond 
2016, with Iran, China, and other hostile state actors 
following suit. In September 2018, the midterm elections, the 
Department of Justice charged a Russian national with 
conspiring to interfere in the 2018 midterm elections in 
connection with her work as a chief accountant for ``Project 
Lakhta,'' a social media influence campaign funded by the same 
Russian oligarch already indicted by the Special Counsel for 
financing the Internet Research Agency. On the eve of the 
midterms, Facebook announced that it had suspended over 100 
Facebook and Instagram accounts due to their potential 
affiliation with the Internet Research Agency.
    In submitting a classified intelligence community report on 
foreign interference in December 2018, Director of National 
Intelligence Dan Coats stated: ``Russia and other foreign 
countries, including China and Iran, conducted influence 
activities and messaging campaigns targeted at the United 
States to promote their strategic interests.''
    As we approach the 2020 Presidential election cycle, U.S. 
intelligence officials and security experts have warned that 
malign foreign influence operations will continue to evolve.
    According to FBI Director Christopher Wray, Russia likely 
viewed its influence activities in 2018 as a ``dress rehearsal 
for the big show in 2020.'' In his 2019 Worldwide Threat 
Assessment, DNI Director Coats added: ``We expect our 
adversaries and our strategic competitors to refine their 
capabilities and add new tactics as they learn from each 
other's experiences, suggesting the threat landscape could look 
very different in 2020 and future elections.''
    The nonpartisan Brookings Institution predicts that foreign 
state actors will increasingly rely on artificial intelligence 
to conduct political warfare in the form of disinformation 
campaigns that are almost impossible to detect. To this end, 
our adversaries are refining the use of so-called ``deep 
fakes.'' These are synthetically doctored audio, photos, and 
videos that are highly believable, inexpensive to produce, and 
have unlimited potential to go viral. Foreign influence 
campaigns are also trending toward subtler and harder-to-detect 
tactics, including by targeting specific audiences and 
amplifying divisive organic content over the creation of fake 
news and accounts, which are easier to identify.
    In light of these threats, we must undertake a frank and 
bipartisan assessment of the vulnerabilities that remain in our 
electoral process.
    While the Department of Homeland Security has established 
multiple task forces to combat foreign election interference, 
the DHS Inspector General reports that their effectiveness has 
been undermined by dramatic staffing cuts, leadership turnover, 
and a lack of coordination with state election officials. 
Meanwhile, the Election Assistance Commission, which is 
responsible for administering the $380 million in state grant 
funding that Congress appropriated for election security in 
2018, is experiencing a shortfall of technical expertise, 
including the recent departure of its top technology official 
in charge of testing and certifying voting systems.
    Information sharing among intelligence agencies, state and 
local governments, and private-sector technology companies has 
markedly increased since 2016. However, there is still 
significant room for improvement. The FBI's recent notification 
to state and local officials in Florida that Russian operatives 
had successfully hacked voter registration files in two 
counties in 2016 came nearly three years after the breach and 
over six months after the 2018 midterms.
    Social media companies and Federal law enforcement agencies 
also must continue to improve their ability to communicate 
specific threat information and potential vulnerabilities in 
real time.
    Securing the integrity of our electoral process will 
require a collective and renewed commitment on the part of the 
public and private sectors to address these and other 
challenges. Only then can we be confident that future elections 
in the United States truly reflect the will of the American 
people.
    I now yield to the Ranking Member, the gentleman from 
Georgia, Mr. Hice, for his opening statement.
    Mr. Hice. Thank you very much, Mr. Chairman.
    We all know that voting is a bedrock of our republic. It is 
grounded in the principle of federalism and a fundamental right 
we as Americans enjoy and take pride in. It is imperative that 
our election systems are secured so that Americans can have 
full confidence that their vote is heard on election day.
    Not only are we here to discuss the importance of ensuring 
the security of our election systems but also how we protect 
political discourse on the social media platforms like 
Facebook, Twitter, and YouTube leading into Americans casting 
their vote.
    The Federal agencies on our first panel, along with others, 
play an important role in aiding state and local election 
officials who are ultimately responsible for administering the 
elections.
    In January 2017, in order to reduce both cyber and physical 
risk to state and local election systems and facilities, the 
Department of Homeland Security designated our election systems 
as a critical piece of our country's infrastructure. As a 
result, state and local election officials can now receive a 
wide range of services to reduce both cyber and physical risk 
to their election systems and facilities.
    Additionally, in March of last year, President Trump signed 
the Consolidated Appropriations Act which provided another $380 
million for grants disbursed by the Election Assistance 
Commission to state and local election officials to improve 
election administration. So I look forward to hearing from 
Chairwoman McCormick more about the EAC's partnership with 
state and local election officials and how they are putting 
that money to good use.
    Later this afternoon we will hear from Facebook, Twitter, 
and Google representatives to understand the role of these 
private-sector companies in safeguarding our political process. 
These three entities have become such a centerpiece in the 
discourse of our Nation and our politics. I think we are all 
aware of that. Think about the presence and reach of social 
media platforms today. Facebook has over 2.3 billion monthly 
users, Twitter over 330 million, and Google over 2 billion. 
These platforms obviously have a massive audience. Accordingly, 
it is vital that these companies are fully transparent on their 
platforms. These platforms should advance freedom of speech, 
not censor it. Yet, we find again and again that some accounts 
are suspended or banned for unclear reasons. So I look forward 
to discussing how some accounts are banned or suspended for bad 
content and who is making that determination, and why.
    Additionally, social media companies should play an active 
role in securing their platforms by limiting the spread of 
misinformation, providing transparency of political 
advertising, while also blocking and removing fake accounts 
seeking to manipulate the public.
    It is no secret that Russia, Venezuela, Iran and other 
foreign adversaries seek to interfere in our political process. 
These bad actors have and will likely seek to challenge the 
credibility of our election system, the very fundamental part 
of our republic. We must safeguard our systems and our 
platforms and deter future attempts by all foreign adversaries. 
It is my understanding that during 2018, Twitter challenged 
about 425 million accounts that were suspected of engaging in 
spam or platform manipulation. Of that amount, roughly 75 
percent have been suspended or removed. Between October 2017 
and March 2018, Facebook disabled 1.27 billion fake accounts.
    I think it is important to note that there is a clear 
distinction between content from foreign adversaries versus 
content with which people disagree.
    So we have a lot to unpack this afternoon. I look forward 
to hearing from our witnesses on their roles and 
responsibilities to safeguard and protect the integrity of our 
elections, and I thank the Chairman, and I yield back.
    Mr. Lynch. The gentleman yields back.
    Without objection, the gentleman from Maryland, Mr. 
Sarbanes, who is a full committee member and author of H.R. 1, 
the For the People Act, which seeks to address some of the 
issues that we raised today, shall be permitted to join the 
subcommittee on the dais and be recognized for his questions of 
the witnesses at the appropriate time.
    Today we are joined by the Honorable Christopher Krebs, 
Director, Cybersecurity and Infrastructure Security Agency, 
U.S. Department of Homeland Security; Adam Hickey, Deputy 
Assistant Attorney General, National Security Division, U.S. 
Department of Justice; the Honorable Christy McCormick, 
Chairwoman, U.S. Election Assistance Commission; and the 
Honorable Ellen Weintraub, Chairwoman, U.S. Federal Election 
Commission.
    If the witnesses would please rise, I will begin by 
swearing you in. Please raise your right hand.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that the witnesses answered 
in the affirmative.
    Thank you, and please be seated.
    The microphones are sensitive, so please speak directly 
into them. And without objection, your written statements will 
be made part of the record.
    With that, Mr. Krebs, you are now recognized to give an 
oral presentation of your testimony.

  STATEMENT OF CHRISTOPHER KREBS, DIRECTOR, CYBERSECURITY AND 
  INFRASTRUCTURE SECURITY AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Krebs. Chairman Lynch, Ranking Member Hice, and members 
of the subcommittee, good afternoon and thank you for the 
opportunity to testify regarding the Department of Homeland 
Security's efforts to secure the vote.
    Cyber threats, particularly from nation-state actors, 
remain one of the most strategic threats to the United States. 
Perhaps the highest profile threats we face today are attempts 
by nation-state actors to interfere in our democratic 
elections.
    Our goal has been for the American people to enter the 
voting booth with confidence that their vote counts and is 
counted correctly. I want to update this committee on the 
progress made in working with the election community. Our 
agency, the Cybersecurity and Infrastructure Security Agency, 
or CISA, our mission is clear: to support election officials 
and their private-sector partners consistent with the 
Constitution, existing law, and electoral tradition.
    At its core, elections are run at the state and local 
level, but those officials shouldn't have to defend themselves 
from nation-states on their own.
    Since 2016, we have learned quite a bit. We have done 
after-action reviews, the Department of Justice conducted an 
investigation and issued indictments in some cases, Offices of 
Inspectors General and the General Accountability Office and 
multiple committees in Congress have or are investigating what 
happened and how we can improve our efforts to secure 
elections.
    Over the last two years, in focused and oftentimes humbling 
engagements, we have become partners with the election 
community. For the 2018 election, alongside the Election 
Assistance Commission, we worked with all 50 states, over 1,400 
local and territorial election offices, six election 
associations, and 12 election vendors.
    Our approach is three-fold: first, making sure the election 
community has the information they need to defend their 
systems; second, making sure they have the technical support 
and tools they need to defend their systems; and third, 
building enduring partnerships to advance security efforts 
together.
    In 2018, we focused on building scalable, repeatable 
mechanisms to dramatically grow our information-sharing 
capabilities. The Election Infrastructure and Information 
Sharing and Analysis Center, or EI-ISAC, was established. By 
election day, the EI-ISAC had over 1,400 members, including all 
50 states. This is the fastest growing ISAC of any critical 
infrastructure sector. That ISAC now has over 1,600 local 
jurisdictions participating.
    We shared contextualized threat intelligence and actionable 
information through our close partnerships with the 
intelligence community and law enforcement. More importantly, 
state and local election officials were sharing what they were 
seeing on their own networks.
    We also deployed intrusion detection capabilities, or 
Albert sensors, to provide real-time detection capabilities of 
malicious activity. By election day 2018, those sensors offered 
protection to election infrastructure in voter registration 
data bases for more than 92 percent of registered voters. For 
reference, during the 2016 election, we were below 30 percent 
of coverage. That is real improvement.
    Second, we provided technical support and services to 
election officials and vendors. Initially, we offered the 
standard services, including vulnerability assessments that we 
offer Federal agencies and other sectors. As we refined our 
understanding of election official requirements, we shifted the 
capabilities quicker, less intrusively, and can scale to more 
jurisdictions.
    This scalability is critical, because while our initial 
efforts in 2016 were primarily targeted at state election 
officials, we recognized the need to increase our support to 
counties and municipalities who operate elections as well. Our 
last-mile initiative sought to provide information customized 
to the local county level.
    While on the surface it seems simple, this initiative 
provided no-cost, tailored information on cyber risks and a 
checklist of cyber security action items.
    The final area of focus has been on building enduring 
partnerships toward a collective defense. It may seem mundane, 
but governance, communications, coordination, training, and 
planning are the critical foundational elements of our efforts 
to secure the Nation's elections. These efforts and others 
contributed to a secure 2018 election.
    While 2018 is behind us, the 2020 election season is 
already underway. We are clear-eyed that the threat to our 
democratic institutions remains, and we must continue to press 
for increased security and resilience of our election systems. 
Over the next two years, CISA will focus on expanding 
engagement at the local level. We will also continue to work 
with election officials to improve both their and our 
understanding of risk. With a better understanding of risk, we 
can support efforts by election officials to obtain the 
resources they need to secure their election systems.
    We at CISA are committed to working with Congress to ensure 
our efforts cultivate a safer, more secure and resilient 
homeland.
    Once again, thank you for the opportunity to appear before 
the committee today, and I look forward to your questions.
    Mr. Lynch. Thank you, Mr. Krebs.
    Mr. Hickey, you are now recognized.

 STATEMENT OF ADAM HICKEY, DEPUTY ASSISTANT ATTORNEY GENERAL, 
     NATIONAL SECURITY DIVISION, U.S. DEPARTMENT OF JUSTICE

    Mr. Hickey. Good afternoon, Chairman Lynch, Ranking Member 
Hice, and distinguished members of the subcommittee. Thank you 
for the opportunity to testify on behalf of the Department of 
Justice concerning our efforts to ensure the safety and 
security of our Nation's election infrastructure and to combat 
malign foreign influence.
    By malign foreign influence, I am referring to covert 
actions by foreign governments intended to affect U.S. 
political sentiment and public discourse, sow divisions in our 
society, or undermine confidence in our democratic 
institutions. These can range from computer hacking that 
targets election infrastructure or political parties to state-
sponsored media campaigns.
    This issue, protecting the Nation's democratic processes, 
has been and remains a top priority of the Department. Our 
principal role here is the investigation and prosecution of 
Federal crimes. But malign foreign influence efforts extend 
beyond efforts to interfere with elections, and they require 
more than mere law enforcement responses alone.
    Recognizing that, we approach this issue the same way we 
approach other national security threats, by using our own 
legal tools, as well as supporting the tools and authorities of 
others. And to the best of our ability, we try to prevent 
crimes from occurring or disrupt them in progress, in part by 
sharing information that enables people to protect themselves.
    Reflecting the priority of these issues, last year the 
Attorney General's Cyber Digital Task Force analyzed the types 
of foreign influence operations that exist and lays out a 
framework to guide our responses. Since the 2016 election, the 
Department has taken a number of steps to combat malign foreign 
influence and support secure elections.
    First, as an intelligence-driven organization and member of 
the intelligence community, the FBI can pursue tips and leads, 
including from classified information, to identify, 
investigate, and disrupt illegal foreign influence activities. 
To that end, the FBI established the Foreign Influence Task 
Force to lead its response to ensure information flow, resource 
allocation, and coordination both within the Department and 
among the Department, other Federal partners, and the private 
sector.
    Second, together with other agencies, through a series of 
outreach and education efforts, we have been helping public 
officials, candidates, and social media companies to harden 
their own networks and platforms against malign foreign 
influence operations.
    Third, we have improved enforcement of the Foreign Agents 
Registration Act, one of the statutory tools that helps ensure 
transparency in the activities of foreign entities and 
individuals. FARA enforcement makes it more difficult for those 
entities and individuals to hide their role in activities 
occurring in the United States.
    Fourth, our investigations have led to a number of criminal 
charges and other enforcement actions that have exposed malign 
influence efforts by foreign states and their proxies. While we 
work with other nations to obtain custody of foreign defendants 
whenever possible, just the charges themselves help educate the 
American public about the threats that we face.
    Fifth, our investigations have supported the actions of 
other U.S. Government agencies such as financial sanctions 
imposed by the Secretary of the Treasury.
    Finally, even outside the context of criminal charges, we 
have used the information from our investigations both to warn 
and to reassure potential victims and the general public alike 
about malign foreign influence activities. Victim 
notifications, defense of counterintelligence briefings, and 
public safety announcements are traditional Department 
activities, but they must be conducted with particular 
sensitivity in the context of foreign influence and elections. 
In some circumstances, exposure can be counter-productive or 
otherwise imprudent.
    Given those countervailing considerations, the Department 
has adopted a public policy for evaluating whether and how to 
disclose malign foreign influence activities, and among its 
first principles, partisan political considerations must play 
no role in our decisions.
    Our adversaries will undoubtedly change their tactics as 
technology changes, and we will need to be nimble in our 
response. But the framework we developed last year will aid us 
to respond, and I believe it will have staying power.
    As you can see, the Department plays an important role in 
combatting foreign efforts to interfere in our elections, but 
there are limits to our role and the role of the Federal 
Government more generally in combatting malign foreign 
influence. Doing so effectively requires a whole-of-society 
approach that relies on coordinated actions by government 
agencies at various levels, support from the private sector, 
and the active engagement of an informed public.
    Thank you again for the invitation to testify today, and I 
look forward to your questions.
    Mr. Lynch. Thank you, Mr. Hickey.
    Ms. McCormick, you are now recognized for five minutes.

   STATEMENT OF CHRISTY MCCORMICK, CHAIRWOMAN, U.S. ELECTION 
                     ASSISTANCE COMMISSION

    Ms. McCormick. Good afternoon Chairman Lynch, Ranking 
Member Hice, and members of the subcommittee. Thank you for the 
opportunity to testify before you to detail the important work 
of the U.S. Election Assistance Commission, better known as the 
EAC, and our role in helping election officials secure 
elections.
    While 531 days remain until the 2020 Presidential election, 
the first Federal Presidential primary is just seven months 
away, and election officials across the Nation are 
administering state and local elections now. As you know, the 
EAC and its vital mission were established under the Help 
America Vote Act of 2002. The EAC is the only Federal agency 
solely devoted to supporting election officials in their work. 
It is as needed today as it has been at any other time since it 
was established.
    One of the Commission's primary focuses is election 
security, and I am pleased to have this opportunity to provide 
more detail about our efforts in that regard. Before I do, 
however, it is important to put that work into context.
    Election security is only one component of election 
administration. To demonstrate this, the EAC has developed a 
wheel of competencies in which each section represents a 
similar level of expertise and effort. The Election 
Administrator Competency Wheel visualizes ongoing duties, 
election preparation work, as well as responsibilities stemming 
from election night and beyond. The 20 areas of competency 
represented on the wheel are each important and require support 
from our team, and many of these competencies play a direct 
role in election officials' work to secure elections.
    The EAC has worked diligently to help states secure their 
elections, especially in the months leading up to last year's 
election. The EAC expeditiously distributed newly appropriated 
HAVA funds to the states, assisted our Federal partners in 
establishing and managing the critical infrastructure 
operational framework, continued to test and certify voting 
systems, and highlighted and distributed important best 
practices in election administration.
    As the agency best positioned to communicate directly with 
election officials across the country, the EAC also played an 
early and leading role in establishing trust and open lines of 
communication between state and local leaders and the Federal 
Government entities that work on election security. The EAC 
drove the development of the Election Security Working Group 
that eventually became the subsector's Government Coordinating 
Council, GCC, and played an integral role in establishing the 
Sector Coordinating Council, SCC, comprised of private election 
equipment manufacturers and vendors.
    Beyond the GCC and SCC, the Commission has taken a 
multifaceted approach to helping state and local election 
officials strengthen their election security. This work 
includes testing and federally certifying voting systems, 
providing hands-on security and post-election audit trainings 
across the country, producing security-focused resources, 
disseminating security best practices information and 
checklists to state and local election officials, as well as 
hosting widely attended forums that feature security experts as 
speakers.
    The distribution of HAVA funds is another example of the 
EAC's work related to election security. Last year, Members of 
Congress provided $380 million in much needed and much 
appreciated financial support to the states and territories 
through the EAC. We know from state plans and expenditure 
reports that most states are spending these funds on items that 
will directly improve election security. In fact, at least 90 
percent of the funds have been devoted to technological and 
cyber security improvements, the purchase of new voting 
equipment, and improvement to voter registration systems.
    Through our more recent conversations with all 55 states 
and territories that receive these funds, we believe that as of 
April 30th, 2019, states have spent at least $108.14 million, 
or 29 percent of the $380 million in grant funds. This 
represents a 262 percent increase in spending from the last 
reported spending levels in September of last year.
    As states seek to invest these funds in purchasing new 
voting equipment, election leaders are continuing to turn to 
the EAC's testing and certification program as a key resource 
in ensuring the Nation's voting systems are tested to confirm 
the secure and accurate tabulation of ballots. This includes 
seeking information about when the EAC will implement the next 
iteration of the Voluntary Voting Systems Guidelines, which 
will be known as VVSG 2.0.
    The VVSG has historically consisted of principles, 
guidelines, and requirements against which voting systems can 
be tested to determine if the system meets required standards. 
These guidelines are voluntary, and states may decide to adopt 
them entirely or in part. Last year, the EAC's Technical 
Guidelines Development Committee, as well as the EAC's Board of 
Advisors and Standards Board recommended adoption of the 
proposed guidelines and principles. Unfortunately, when one of 
the commissioners left the EAC, we lost our quorum and were not 
able to vote to move the guidelines forward. After Commissioner 
Palmer and Commissioner Hublin were confirmed and a quorum was 
restored, our first official act was to unanimously vote to 
publish the principles and guidelines in the Federal Register 
for a 90-day public comment period.
    In April we held public hearings in Memphis and Salt Lake 
City, and on Monday we held our third hearing at our office in 
Silver Spring. The public comment period on the principles and 
guidelines concludes on May 29th.
    It is important to note that the EAC's participation in 
critical infrastructure activities and its own security work 
was a direct result of the personal involvement and direction 
of the EAC's most senior staff, as well as the efforts of our 
talented team of professionals. The EAC does not have full-time 
employees devoted to these new components of providing election 
security support.
    As we provide for 2020 and beyond, the EAC looks forward to 
working with Congress as we continue our efforts to help 
America vote, including work to secure elections.
    I am happy to answer any questions you may have following 
today's testimony. Thank you.
    Mr. Lynch. Thank you, Ms. McCormick.
    Ms. Weintraub, you are now recognized for five minutes.

  STATEMENT OF ELLEN L. WEINTRAUB, COMMISSIONER, U.S. FEDERAL 
                      ELECTION COMMISSION

    Ms. Weintraub. Thank you. Chairman Lynch, Ranking Member 
Hice, and members of the committee, thank you for inviting me 
to testify before you today, and thank you for convening this 
hearing in this subcommittee, because the integrity of our 
elections is a matter of national security. I welcome the 
committee's forward-looking approach to the ongoing 
cybersecurity and disinformation threats to our election 
infrastructure, especially as we head into the 2020 elections. 
I share your concerns about foreign threats to the integrity of 
our country's elections.
    And I bring some good news. The Commission yesterday 
approved an advisory opinion that will allow Federal campaigns 
to accept extensive cybersecurity assistance from a project 
called Defending Digital Campaigns. They are bipartisan, 
national security and tech savvy, and they can help protect 
campaigns from foreign and domestic cyber and information 
attacks. It is a big step for the FEC to allow a group like 
this to assist campaigns. We allowed it because of the grave 
dangers facing campaigns from hackers, and I hope every 
campaign will take advantage of it.
    I am also introducing a proposal at the FEC tomorrow to 
allow the party committees to use their building funds to pay 
for cybersecurity for themselves and their candidates. There is 
a bill on that, but we could do it without legislation, and I 
hope we will.
    We know what happened in 2016. We know that our foreign 
adversaries can and will repeat their cyber warfare if the U.S. 
Government does not act boldly and decisively to defend this 
Nation from such attacks. And make no mistake, our adversaries 
do not seek partisan advantage. They seek chaos and discord. 
They seek to undermine our democracy. Just because Russia's 
attack involved ports on Facebook servers instead of a port in 
the middle of the Pacific Ocean makes it no less of an attack 
on our country.
    Other witnesses today have and will tell you about how we 
need to protect the physical infrastructure of our elections, 
the brick and mortar electoral apparatus run by state and local 
governments, and it is vital that we do so. But from my seat on 
the Federal Election Commission, I work every day with another 
kind of election infrastructure, the foundation of our 
democracy, the faith that American citizens have that they know 
who is influencing our elections, and that faith has been under 
malicious attack from our foreign foes through disinformation 
campaigns. That faith has been under assault by the corrupting 
influence of dark money that may be masking illegal foreign 
sources. That faith has been besieged by online political 
advertising from unknown sources. That faith has been damaged 
through cyber attacks against political campaigns ill-equipped 
to defend themselves on their own.
    That faith must be restored, but it cannot be restored by 
Silicon Valley. Rebuilding this part of our elections 
infrastructure is not something we can leave in the hands of 
the tech companies, the companies that built the platforms now 
being abused by our foreign rivals to attack our democracy. 
Don't let the guys on the next panel tell you they got this; 
they don't.
    The U.S. Government needs to be the one who steps up to 
meet this threat. I am doing what I can at the FEC. I revived 
the Commission's efforts to clarify the rules about Internet 
advertising disclosure. I have highlighted the dangers of 
foreign election spending through corporations, LLCs, and dark 
money groups. The Commission recently obtained record penalties 
against a Super PAC and a domestic subsidiary that was 
funneling money into our elections at the behest of foreign 
owners. So this risk is not hypothetical.
    But there is only so much I can do from my seat on the 
Commission. Congress has more powerful tools available to it, 
and I urge you to use every tool in your toolbox. There is 
legislation already drafted that could help, bills like the 
Honest Ads Act, the Deter Act, the Secure Elections Act. I 
implore all Members of Congress, regardless of party and 
regardless of chamber, to speak up now. Speak up, legislate, 
pressure leadership to bring those bills to the floor.
    And I urge you most of all to do something outside the 
realm of election law, something that the FEC absolutely cannot 
do. Congress and the White House must make it abundantly clear 
to our foes that the costs of attacking America's elections far 
outweigh the real or perceived benefits. If those who attack 
our democracy pay no price for doing so, the damage they will 
continue to wreak will swallow up any other reform we could 
possibly enact.
    In the best of all possible FEC worlds, I could crack down 
on dark money. In the best of all possible FEC worlds, I could 
provide greater transparency for online political debate. But 
nothing that I do will matter unless Congress and the White 
House convey with unmistakable clarity and unity that our 
democracy is not to be messed with. We need to put partisanship 
aside and speak with one voice, not as Democrats or Republicans 
but as Americans. I hope this hearing will be a positive step 
in that direction.
    Thank you.
    Mr. Lynch. Thank you.
    I will now yield myself five minutes for questions.
    Chairwoman McCormick, given the critical role that the 
Election Assistance Commission plays in our democratic process, 
your agency has been given a renewed sense of purpose and 
urgency and attention. The Commission is finally back to having 
a quorum after lacking one between December 2010 and January 
2015, which is a sad statement in itself; and then again since 
March 2018. The Commission was integral in distributing the 
$380 million in funding that the Help America Vote Act provided 
during the last few years. However, I do remain concerned that 
the EAC may not be able to fill its important role in a timely 
fashion as we approach the 2020 elections.
    Last week, on May 15, you did speak before the Senate 
Committee on Rules and Administration and testified that in 
2009, the last time the EAC had a quorum--and this is a quote--
you said, ``Our budget was double what it is now.'' You also 
testified that the EAC had 49 employees back then, and you have 
22 right now.
    So this is against the backdrop where I think the pressure 
on you and the work that needs to be done has risen 
exponentially, and you are trying to do this with less 
resources and less people, and I know some of your tech people 
left a short while ago and you are trying to in-board some 
technical help.
    I am worried. I am worried. I talked to some of my state 
and county officials around the country, and they are nervous 
about making the necessary improvements, getting the necessary 
equipment and funding, training the necessary people on the new 
systems, and having all that happen in a fluid fashion before 
the elections in 2020.
    So how are things going?
    Ms. McCormick. Obviously, we are a very small agency and 
quite underfunded, but I give a lot of kudos to our staff, who 
work 80 hours a week each on all of the projects that we are 
doing. We are stretched very thin, but we have met our mission, 
and we have met it well. We have hired some new security and 
technical people, and we are very excited to on-board them. The 
person that we hired as our Director of Testing and 
Certification is one of the country's experts on post-election 
audits, and we have two more people starting who have between 
them 26 years combined experience in testing and certification 
of voting systems.
    We have also hired last year a CIO who has expertise in 
cybersecurity, and so we are rebuilding that team. We are doing 
the best we can with the resources we have, but we have asked 
for more appropriations, and we hope we will get them.
    Mr. Lynch. I don't doubt that you are doing the best you 
can under the circumstances. But if 2016 and 2018 are 
indicators, and I think they are, you are going to face a 
ramped-up assault in the coming months before the election.
    What do you need? What do you need specifically, as 
specifically as possible? I will hold my other questions until 
later. But what do you need? What can we do to help you?
    Ms. McCormick. People. We need people. We need more staff. 
Our staff is strained to the breaking point at this point, and 
we need depth. We have, in some cases, one person with no back-
up holding down jobs that need back-up in case something 
happens. So we are asking for money so we can hire more staff 
to meet the demands.
    The EAC's mission has expanded since it was created under 
HAVA. We didn't have the cybersecurity needs at the time. We 
always worried about election security, but, of course, since 
2016, this is an additional mission for our agency, and we have 
stepped up in every way possible that we can, given the 
resources that we have. But we would like to step up even 
further.
    Mr. Lynch. All right. There is some common ground here 
between Democrats and Republicans. Can I ask you to work with 
your top people and give me a budget of what you need to get 
your job done? I know there are wider issues, but just narrowly 
look at 2020, what you need to get your job done, the number of 
people you need, to the degree possible a dollar figure that 
will get it done. Think about technology, the equipment you 
need, the whole shebang.
    Ms. McCormick. Yes, we can do that. We already have given 
that to Appropriations, so I can give that to you.
    Mr. Lynch. We have to strip it down just to that, what you 
actually need. I know there are a lot of other issues that are 
out there, but my focus is the 2020 elections because of the 
consequences. If we have a close election, God forbid, and 
people are skeptical of the process, I have seen that happen in 
other countries and it undermines the legitimacy of the 
government that gets put in place, and I don't want to be one 
of those countries in January 2021.
    Ms. McCormick. I agree with you completely.
    Mr. Lynch. Okay, I am going to yield to the Ranking Member, 
Mr. Hice, for five minutes.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Mr. Krebs, you are aware of the situation in Florida, the 
voter registration breach in 2016?
    Mr. Krebs. Yes, sir, I am aware of the incident in 2016 in 
Florida.
    Mr. Hice. As much as you can, to the extent that you can, 
walk us through what happened.
    Mr. Krebs. So I think the majority of this conversation 
would require the FBI to be a part of the conversation as well. 
The FBI was lead on briefing down in Florida, and I would defer 
to Mr. Hickey as well.
    Ultimately, I think what we at my agency are focusing on is 
ensuring that any victim has the information they need to 
secure and address the issues with their systems so that we can 
understand what is happening within those systems and share the 
techniques that the adversary may be using across those 
systems.
    Mr. Hice. Okay. I want to go there, but first let me go to 
Mr. Hickey.
    Can you just real briefly, a 30,000-foot view, tell us what 
happened?
    Mr. Hickey. Thank you, sir. The most I think I can say in 
this forum without deferring to the FBI is that there were two 
counties that experienced intrusions into their systems, and we 
are confident based on what they have told us and our own work 
that there is no evidence that we have seen that that had any 
impact on the tabulation or counting or reporting of votes.
    Mr. Hice. Okay. But the fact that the breach took place 
obviously is concerning to every one of us in here.
    So going back, Mr. Krebs, to you, between the FBI and DHS, 
what steps are being taken to try to prevent this from 
happening again?
    Mr. Krebs. So, as I mentioned, the run up to 2018, we made 
it a priority to work with every single state and as many of 
the local jurisdictions as possible. I have to say that Florida 
and Governor DeSantis just issued a press statement I think 
earlier today about his review of the state's election systems. 
But what we are finding is that Florida is probably one of our 
best partners of any state in the union right now.
    Of their 67 counties or their 67 election supervisor 
jurisdictions, they are all working with us in one way, shape, 
or form. The Albert sensors I mentioned, those intrusion 
detection systems, 66 of 67 counties have them configured and 
deployed right now, and the 67th is in the process of doing so 
right now.
    Mr. Hice. So with that, are you confident, relatively 
confident, that that vulnerability is going to be removed for 
2020?
    Mr. Krebs. Well, the specific vulnerability or the issue 
associated with the 2016 incident was addressed. What we are 
doing is taking----
    Mr. Hice. Was it addressed to the point that the problem 
has been resolved?
    Mr. Krebs. That is my understanding.
    Mr. Hice. Okay.
    Mr. Krebs. So what we have been doing is really focusing on 
what happened in this case. We have made a significant 
investment in outreach and engagement, best practices sharing. 
Spear phishing campaign assessments are one of our top 
priorities and just pushing awareness that with email come 
potential risks. It is really educating supervisors and 
election officials that there are things that they can do to 
truly minimize their risk surface.
    Mr. Hice. Why has the FBI not released or disclosed the 
identity of the two counties?
    Mr. Krebs. Again, I defer to the FBI on that, sir.
    Mr. Hice. Mr. Hickey, any idea? I am just curious.
    Mr. Hickey. I think what they would say is they are 
following the process we follow any time you respond to the 
victim of a computer intrusion, which is that we are there to 
help them, and we leave it to them to make the decision about 
who they are accountable to and how to report that information. 
So whether it is a company or a county or a state, we are there 
to provide assistance, and then they need to make decisions 
about who they need to disclose that to.
    Mr. Hice. I get that, but we have a right to know too. This 
is something that took place in 2016. We are talking three 
years ago. Evidently the issue has been addressed, the 
vulnerability is being closed. We have the right to know. I 
believe Congress has the right to know who was involved in that 
as far as counties, and the American people need to know. So I 
expect you to get back with us on this as best you can.
    Ms. McCormick, let me go to you real quickly. Regarding the 
money, I brought this up a little bit in my opening statement, 
the $380 million that is available to help in the states, 80 
percent of that is going to be spent. In what kind of concrete 
ways or how are the states going to use this?
    Ms. McCormick. About 58 percent of the money has been used 
for hardening cybersecurity, hardening the infrastructure. 
About 34 percent has been used to purchase new voting systems, 
where needed. And then about six percent, seven percent used 
for voter registration systems. So that adds up to a little 
over 90 percent of the money so far. We expect that the states 
will, straight-line projection, spend 85 percent of that money 
by 2020.
    Mr. Hice. Okay.
    And one five-second question, Mr. Hickey. What do you 
believe is our greatest threat to the election security? Is it 
hacking? What is the greatest threat?
    Mr. Hickey. It is how we respond to reports of hacking. 
Hacking, sir, I think is inevitable. It is how we react to it. 
Systems that are connected to the Internet, if they are 
targeted by a determined adversary with enough time and 
resources, they will be breached. So we need to be focusing on 
resilience, and resilience is not just a matter of what Mr. 
Krebs can tell you about the importance of auditing votes and 
the like. It is also how we as a people respond when there is a 
rumor or there is a report that there has been a breach. We 
need to take a breath, we need to let the states evaluate it, 
we need to let investigators respond, and we need to have 
confidence in our elected representatives and our state 
officials that they have this, because they deal with 
contingencies and elections all the time.
    If we undermine ourselves, the confidence in our systems, 
we will be doing our adversary's work for them.
    Mr. Hice. More than a 10-second question, but I appreciate 
your answer.
    I yield back, Mr. Chairman.
    Mr. Lynch. The Chair now recognizes the gentleman from 
Tennessee, Mr. Cooper, for five minutes.
    Mr. Cooper. Thank you, Mr. Chairman.
    Director Krebs, apparently you warned us earlier this year 
that the 2020 election is, quote, ``the big game'' for foreign 
adversaries looking to undermine our democracy. I want to 
understand your analogy a little better. By ``big game,'' did 
you mean an amusement or a plaything, or did you mean more like 
big game, like we are an animal to be hunted?
    Mr. Krebs. Sir, I think for the adversary, and this is 
consistent with what Director Wray at the FBI has recently 
said, that is the target, that is the big target, the 2020 
election.
    Mr. Cooper. So we are like the lion that is being hunted.
    Mr. Krebs. I have not thought about it in a game hunting 
sort of analogy, but this is the great competition.
    Mr. Cooper. And unless it is a photo safari, the hunter 
seeks to not only hunt but kill the lion, right? That is the 
big game trophy that many hunters are pursuing.
    Mr. Krebs. I am not a hunter myself, sir, but I think that 
is probably right.
    Mr. Cooper. I am concerned because my state, Tennessee, has 
voting systems in most of our counties that have been judged 
some of the most vulnerable in the country. The Center for 
American Progress gave our state an F because so few of our 
voting machines have any sort of paper trail capability for 
voter verification or adequate audit procedures. So that means 
roughly about 15 percent of our counties apparently do have 
good machines; 85 percent do not. And yet our state has had on 
hand for nearly 18 years some $27.5 million unspent that could 
be used to acquire better voting machines. Davidson County, at 
least, has recently decided to buy better voting machines, 
which will be in place for the next election.
    Ms. McCormick, what would you advise a state like Tennessee 
to do with that $27.5 million that has been sitting there for 
all these years just accumulating interest, even though that 
money has been held while we were under attack from foreign 
adversaries?
    Ms. McCormick. Well, we work with Secretary of state 
Hargett and with your elections coordinator, Mark Goins, and I 
trust that they are on top of that issue. We do suggest best 
practices, and one of those best practices is VDPAT on a voting 
system or a paper ballot. But we also have to keep in mind, of 
course, the voters with disabilities. I think that they are 
aware of this problem, and I suspect that they are working to 
fix the issue.
    Mr. Cooper. So they are on top of the situation even though 
we got an F from the Center for American Progress?
    Ms. McCormick. Well, I can't speak for the Secretary or for 
Mr. Goins, but I think that they are doing a fine job in 
Tennessee. We do interact with them on a frequent basis.
    Mr. Cooper. Were you aware that in 2018 hackers, apparently 
from the Ukraine, shut down a county election commission 
website during an election?
    Ms. McCormick. I was not aware of that.
    Mr. Cooper. Well, being on top of the situation can mean 
various things, but presumably it would mean that websites 
would remain open during an election and not be shut down by a 
foreign potential adversary. Apparently no election data was 
manipulated, but a site that has been hacked successfully could 
be vulnerable.
    Mr. Krebs knew exactly how many counties in Florida had 
Albert sensors. Can you tell me how many counties in Tennessee 
have an Albert sensor?
    Mr. Krebs. Sir, I would have to come back with you and 
brief specifically on the counties. But I will say that the 
state has an Albert sensor, particularly Secretary Hargett's 
operation.
    Mr. Cooper. But as you mentioned, elections really run at 
the county level, and you were very proud of the fact that 66 
out of 67 Florida counties had Albert sensors, and you 
commended Florida for doing such an excellent job. Can you 
commend Tennessee in a similar fashion?
    Mr. Krebs. Tennessee is a great partner. Every state runs 
their elections a little bit differently. Some are top down, 
some are bottom up, some are hybrid. Every state is going to 
run things a little bit differently and have different 
requirements. But Tennessee is a strong partner.
    Mr. Cooper. Well, I know we are great and strong, but we 
also want to be unhackable.
    Mr. Krebs. Sir, I think that is certainly a noble 
destination, but unhackable is not a realistic objective. What 
we are looking for is----
    Mr. Cooper. Well, less vulnerable to hacking----
    Mr. Krebs. Absolutely.
    Mr. Cooper [continuing]. at least at the Florida level, 
which was two or three years late in discovering that they had 
been hacked.
    Mr. Krebs. Sir, again, on 2016 issues, everyone that we had 
an understanding there was an issue was notified of the issue, 
and the issue was addressed.
    Mr. Cooper. But as Mr. Hice pointed out, we still don't 
know which Florida counties were vulnerable. So apparently the 
American people are not allowed to know.
    I see that my time has expired.
    Mr. Lynch. The gentleman yields back.
    The Chair recognizes the gentleman, the doctor from 
Tennessee, Dr. Green.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member Hice. 
Thank you for today's hearing, and also let me thank our 
witnesses for being here today.
    I am equally concerned about this topic, but really almost 
for other reasons. First, the discussion of the threat. Clearly 
there are several threats to the security of our election 
process. One, of course, is the cyber threat, domestic and 
foreign hacking that might alter vote counts. Another, of 
course, is local, focused on the polls themselves where 
intentional or unintentional mistakes can result in the wrong 
results, or worse, actual voter intimidation as seen in the 
2017 special election in Philadelphia, where an election 
official pled guilty to voter intimidation against anyone 
voting for a non-Democrat. Philadelphia has seen many of those 
cases.
    Other such examples of manipulation should also be 
considered, such as ballot harvesting. In Tennessee, we don't 
even allow candidates and their campaigns within a certain 
distance of the polling places so that individuals can be free 
of the pressure right as they cast their ballot.
    But in California, the candidates can just go to the 
person's home with their ballot, pressure them, get their vote, 
and turn it in for them. As the former Speaker of the House 
said, that defies logic.
    I would submit to you that our founders got it right on how 
best to do government, and that is the best government is the 
government that is closest to the people, and I think that is 
also the case in elections.
    Let me just share a little bit about what my state is 
doing. While I deeply respect the gentleman, Mr. Cooper from 
Davidson County, I have to disagree with him. I think Tennessee 
and Secretary Hargett, and particularly the elections 
commissioner, Mark Goins, are doing a fantastic job.
    As I mentioned above, we don't allow candidates in 
Tennessee to get anywhere near our polling sites. Further, all 
the poll workers are divided amongst the parties, effectively 
yielding an equal number of workers from each party at each 
polling station. So local intimidation, like they are seeing in 
Pennsylvania, is not happening in Tennessee.
    As for cyber threats, our Secretary of State, Tre Hargett, 
and the head of our elections, Mark Goins, have done a 
spectacular job protecting the integrity of our elections. The 
state offers regular online cybersecurity hygiene training for 
election officials, including part-time election commissioners, 
and even volunteers. The state provides onsite security scans 
for our county election offices. Tennessee has conducted 
statewide cyber-related election tabletop exercises, war-gaming 
attacks and how to handle them.
    Tennessee provides annual in-person cybersecurity hygiene 
training led by experts such as Paul Connolly, the Chief 
Information Officer from HCA, Healthcare Corporation of 
America. Our state election commission provides each county 
with hardware systems dedicated to interact with our statewide 
voter registration data base. Our personnel are trained on 
recommended best practices and guidelines for protecting 
election infrastructure. As we speak, the state is in the 
process of hiring more technical employees who assist counties 
with cyber-related issues.
    Tennessee doesn't need, nor do we desire, the Federal 
Government's intrusion into our elections. It is clear the 
agenda of the leadership of the majority party is to do just 
that. They even, with H.R. 1, want to force California's 
election systems onto the states, basically making a Federal 
methodology and taking control from the states. It is their 
biggest initiative. It is H.R. 1, usually the designation 
reserved for the party's biggest push.
    California-style elections on the rest of us, not an 
option. The goal is clearly to empower a certain group of 
people, a certain party. It is unacceptable.
    Thank you, Mr. Chairman, for allowing me to share these 
thoughts and the thoughts of the people of Tennessee.
    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Rouda, for five minutes.
    Mr. Rouda. Thank you, Mr. Chair.
    To my esteemed colleague from Tennessee, I would like to 
point out that California does not harvest ballots, contrary to 
that false narrative being perpetuated. And I would also like 
to point out that you conveniently forgot about the actual 
ballot harvesting that was taking place in North Carolina's 9th 
District, where we are having a special election to overturn 
the Republican operatives who unduly influenced the outcome of 
that election.
    But I digress. We are here to talk about voting system 
vulnerabilities, and I appreciate the witnesses coming here 
today to help us better understand the challenges facing our 
country and our voters and our democratic foundations.
    Chair McCormick, I would like to talk to you a little bit 
about the EAC guidelines. I know you are in the process right 
now of going through and updating those guidelines. When were 
those guidelines originally promulgated?
    Ms. McCormick. The systems that are now certified were 
certified under standards that were set in 2005.
    Mr. Rouda. And there has been no upgrade to those 
guidelines since then?
    Ms. McCormick. We actually upgraded those guidelines in 
2015, which we call the VVSG 1.1. But we have seen no 
manufacturer bring a system into those updated requirements.
    Mr. Rouda. Yet the I-phone that has been out since the 
first rendition in 2007, I think we have had about 10 different 
renditions since. So when you look at those guidelines, what is 
your level of confidence in the guidelines providing the 
appropriate guidance to make sure that our election systems are 
safe and secure?
    Ms. McCormick. It is a complicated procedure because we 
still need to be sure that the manufacturers can design systems 
that will meet those requirements, and that the jurisdictions 
will have the funding to be able to buy those systems if they 
come onto the market. So we need to make sure that the systems 
are secure and accessible and reliable and usable, but also 
that they are designed in such a way to take advantage of the 
innovations that are in the market, but not so expensive that 
they are unreachable by most jurisdictions. Funding is always 
an issue when it comes to elections.
    Mr. Rouda. And do you have 100 percent confidence that 
these machines will secure our elections and there will be no 
fraud?
    Ms. McCormick. I don't believe there will be fraud on the 
voting systems. You know, we can't 100 percent guarantee that 
there can be no intrusions into the systems, but we are doing 
our absolute highest and best to test and certify machines that 
will be secure and will not be subject to fraud or manipulation 
of the votes cast on them.
    Mr. Rouda. Well, I am aware of the situation that took 
place in Las Vegas, where we invited in a bunch of hackers to 
try and get into voting machines who had a higher level of 
success than anybody in the industry was anticipating, and that 
should raise concerns for all of us.
    Mr. Krebs, I would like to turn to you a little bit on this 
as well, because I think you had stated earlier in your 
testimony that you do not have 100 percent confidence that 
hacking could not take place in our electronic voting machines. 
Can you verify that I got that correctly?
    Mr. Krebs. Yes, sir. One hundred percent security is not 
the objective. It is resilience of the system. So even if you 
do have a bad day, it is not a catastrophic day, that there is 
resilience built into the system, that you can understand what 
happened across the process and point back to good.
    Mr. Rouda. As a guy who won a primary in Orange County, 
California by 125 votes, I am always a little bit more 
concerned about how sure we have to be in getting that vote 
correct. If you look at the information that has been provided 
by--let me make sure I get the institution correct--the Brennan 
Center for Justice, that 12 states still use paperless 
electronic voting machines that are at extreme risk, and there 
has been discussion that we need to have paper ballots to act 
as a back-up audit, or at least some sort of system within 
these electronic machines to have a back-up audit, what is your 
confidence level in that?
    Mr. Krebs. So, we approach this problem set as IT security 
advisers. So we bring a cybersecurity and an IT security 
mindset to the issue. Auditability is a key tenet of 
cybersecurity, of IT security. If you don't know what is going 
on across the process, it is hard to guarantee an outcome and 
verify the process.
    So one of our top priorities working with the EAC is 
encouraging and incentivizing auditability. It is getting these 
systems, these systems that don't have paper out and systems 
with paper in, and then implementing an audit process not just 
on the back end but throughout the process.
    Mr. Rouda. And one other quick question. If we are not 
completely successful in that outcome, are we looking to going 
back to analog, pen and paper?
    Mr. Krebs. Pen and paper is already an option within the 
system. Every jurisdiction, in their sovereign responsibility 
of conducting elections in Article 1, Section 4, they can pick 
that if they would like, but there are other factors to put 
into the equation.
    Mr. Rouda. Thank you.
    Mr. Chair, I yield back.
    Mr. Lynch. The gentleman yields.
    The Chair now recognizes the gentle lady from North 
Carolina, Ms. Foxx, for five minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today.
    Chairwoman McCormick, in your opinion, are state and local 
governments equipped to combat election interference?
    Ms. McCormick. state and local election officials are doing 
all they can right now, but they do need the assistance of the 
Federal partners. I don't think it is fair to put all of the 
onus on them when there are nation-states that are attempting 
to interfere with our elections, and I know that with our 
Federal partners we are trying to provide all the help we can 
and assistance with resources and information and actual 
physical support to the states and localities so that they can 
secure their systems.
    Ms. Foxx. Thank you. I would like to followup. Congress 
established the EAC to develop guidance to meet the Help 
America Vote Act, HAVA, adopt voluntary voting system 
guidelines and serve as a national clearinghouse of information 
on election administration. In the last Congress, the Senate 
confirmed two new EAC commissioners, giving the EAC four 
commissioners for the first time in about 10 years, and a 
quorum after nine months without one.
    Considering this, what are the top three priorities for 
your commission to accomplish in the next six months?
    Ms. McCormick. I would say to continue providing resources 
that we can to the states for election security, providing 
information on voter registration data bases and how to secure 
them, and also provide any information we can on best practices 
to the states and localities with regard to all of the other 
issues in election administration, of which there are many.
    Ms. Foxx. So the EAC provides voluntary best practices to 
state and local governments to improve their systems. Could you 
highlight the top three practices states and counties find most 
helpful?
    Ms. McCormick. That would be very difficult for me to do 
because it is such a complicated and varied system throughout 
the country. We have a patchwork, so different states and 
localities rely on us for different needs. I can get back to 
you on that, if you would like.
    Ms. Foxx. Sure. Well, then, aside from additional funding, 
which is what everybody always says they need, do you have any 
examples of two or three--do you have two or three examples 
from state and local officials that are the most concerning to 
them?
    Ms. McCormick. I think security is one of their top issues. 
I think there is also a concern with natural disasters. We have 
had a number of issues surrounding a number of events around 
elections that have caused a great deal of concern. And I also 
think that they are concerned about voter confidence, that our 
voters can be assured that their votes are going to count and 
count correctly.
    Ms. Foxx. Thank you.
    Mr. Chairman, I would just like to say, as a person who ran 
for the school board in 1974 and lost by about 200 votes, and 
then I ran again in 1976 and at the time we had an election for 
the Registrar of Deeds in our county, and we had in 1976 an 85 
percent turnout that year, and there were a couple of precincts 
out in the far western part of our county that ran out of 
ballots; and, like Mr. Green, we have in North Carolina equal 
numbers of people from both parties there, and the two parties 
agreed they would make some ballots so that the people who came 
to vote wouldn't have any problem voting. So they made some 
ballots, and the gentleman, who was a good friend of mine, I 
liked him very much, who was running--a Democrat gentleman 
running against a Republican woman for Registrar of Deeds, the 
first time the seat had opened in over 50 years, and the 
Democrats had owned it for 55 years. Anyway, he lost by 13 
votes.
    But all the election officials agreed it was all very clear 
and we would have a hearing by the election board. So they 
ordered a new election for him at the time because he lost by 
13 votes. There was a new election for him only. All the rest 
of the elections were certified. He lost by 1,300 votes.
    I think, for the most part, our election officials locally, 
for the most part, are very honest people, do the best that 
they possibly can for the people, and I was frankly very proud 
of the people in my county for getting together that day, 
Democrats and Republicans, to make sure that everybody who 
showed up at the polls had a chance to vote even though they 
had run out of ballots.
    Thank you very much.
    Mr. Lynch. I thank the gentle lady for sharing that with 
us.
    I do want to note that I worry that state governments, 
because this is a foreign threat, may not be adequately 
equipped. So we don't encourage--we don't think of this as 
Federal interference with states conducting--it is Federal 
assistance and helping them, giving them grants so that they 
can run the election the way you have described, the way they 
see best. But I thank the gentle lady.
    The Chair recognizes the gentleman from Vermont, Mr. Welch, 
for five minutes.
    Mr. Welch. Thank you. I thank the witnesses.
    I have a question that I want to direct both to Mr. Krebs 
and Mr. Hickey, and it is about the public statement that you 
issued jointly in February 2019 concluding that there was ``no 
evidence to date that any identified activities of a foreign 
government or foreign agent had a material impact on the 
integrity or security of election infrastructure of political/
campaign infrastructure used in the 2018 midterm election.''
    Before issuing this joint statement, how many voting 
machines used in November 2018 did DHS and DOJ forensically 
examine for evidence of hacking? And if the answer is none, 
don't you think such an unqualified statement is a bit of an 
overstatement?
    Mr. Hickey. Sir, as the statement lays out, we based what 
we called the 1B report or that conclusion, which is the 
bottom-line conclusion of the 1B report, on the report we were 
given from the ODNI, which looked at what efforts were made by 
foreign actors to interfere in a variety of ways, and then we 
looked at those instances and looked to see whether there was 
evidence of a material impact on infrastructure. So we didn't 
set out to audit or to prove a negative. We looked at the 
evidence that there was. There was evidence of efforts to 
interfere, and we looked at and measured that effort and 
determined it was not materially successful when it comes to 
altering election infrastructure, campaign infrastructure.
    Mr. Welch. Mr. Krebs?
    Mr. Krebs. I concur with that. I would say we looked for 
three sort of feeding elements of that assessment. One is, as 
Mr. Hickey mentioned, from the intelligence community. The 
second is from actually partnerships with state and local 
officials, if they detected or noticed any anomalous activity. 
Whether it was them or their vendors noticed anything, we would 
certainly go and investigate that as a threshold matter. And 
then third is our own ability to understand what is going on in 
the ecosystem through our Albert sensors. If we had detected 
anything, again threshold, then we would go do additional 
engagement.
    Mr. Welch. So your view is that even taking a random sample 
to do forensic analysis of the machines themselves was not 
important to provide a foundational basis for that very 
explicit opinion?
    Mr. Krebs. Auditing, as I think Mr. Hickey laid out, 
auditing is not within the scope of the engagements that tied 
into that assessment. We certainly offer auditing, forensic 
auditing capabilities, to any jurisdiction that would request 
it. Certainly, if they had noticed anything anomalous, we would 
come in and offer that service.
    Mr. Welch. You issued that report to the White House. My 
understanding is that it is classified; is that correct?
    Mr. Krebs. Ultimately the report, under the executive 
order, does go to the National Security Council. Yes, sir.
    Mr. Welch. And I know you didn't make the decision about 
that classification, but I would object to that. Can you think 
of any policy reason why what you found and what you reported 
shouldn't be made known to all of the American people so that 
they can judge for themselves, Mr. Hickey?
    Mr. Hickey. Yes, sir, I think I can. As I mentioned, our 
report piggybacks on a report by the intelligence community 
which was a report on efforts they saw to interfere; attempts, 
if you will. Presumably those attempts and our awareness of 
them are derived from sources and methods that are sensitive, 
and if we were to reveal what we knew about what foreign actors 
had tried, we would necessarily be revealing what we don't know 
that foreign actors have tried.
    Mr. Welch. Well, that is not always the case, because 
reports can be issued with scrubbing out the sources and 
methods, because the point you make about sources and methods 
is a valid point. Let's assume that your concern about sources 
and methods could be addressed. Why not release the rest of the 
information for the benefit of the public?
    Mr. Hickey. Sir, as you mentioned, I was not the 
classification authority. My intuition is that would be 
impossible because the report doesn't actually contain the 
source and method or methods itself. Most of the intelligence I 
read doesn't tell me how the intelligence was collected. But 
from reading it, an adversary would be able to discern, aha, 
they have visibility here, or they have a human source there, 
and what they don't know is this, that, and the other thing. So 
they would be able to identify the most effective ways to 
target us in the future, right? Because if it is not in the 
report, they would probably draw the inference, oh, the 
Americans didn't see that, so that is a good technique for the 
future.
    Mr. Welch. I thank the witnesses.
    My time has expired, and I yield back.
    Mr. Lynch. I thank the gentleman for yielding.
    The Chair now recognizes the gentle lady from Illinois, Ms. 
Kelly, for five minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    In February 2019, the Department of Homeland Security's 
Inspector General released an audit on the efforts of DHS to 
secure our election infrastructure. While the IG report 
credited the Department for taking some steps to lessen the 
risk to U.S. election systems, the IG also found some troubling 
gaps.
    For example, according to the report, and I quote, ``DHS 
has not completed the plans and strategies critical to 
identifying emerging threats and mitigation activities and 
establishing metrics to measure progress in securing the 
election infrastructure.'' The Department had also not 
incorporated election infrastructure into several of its key 
security plans, including the DHS Cybersecurity Strategy and 
the National Infrastructure Protection Plan. The IG noted that 
senior leadership and staff turnover had, and I quote, 
``hindered DHS' ability to accomplish such planning.''
    Director Krebs, has DHS developed an election security 
strategy, and has the President been informed?
    Mr. Krebs. Ma'am, I think that Inspector General report, if 
you look at the end of it and the recommendations they make, 
they actually agreed that we had made the progress and were 
just awaiting documentation.
    The sector-specific plan, Chairwoman McCormick talked about 
the Government Coordinating Council and the Sector Coordinating 
Council, those two bodies, which bring together the 
stakeholders across government at all levels of government and 
the private sector, are part of the election infrastructure 
ecosystem. So they are part of our joint effort to develop the 
plan. That planning process--again, that sector-specific plan 
that nests underneath the National Infrastructure Protection 
Plan that you referenced--that is under development right now. 
It is built on lessons learned from the 2018 process. It is a 
consensus-based, collaborative document, and I look forward to 
getting that wrapped up and will certainly push it up to the 
National Security Council and Master Bolton, and I would hope 
the President would take a look at it. Yes, ma'am.
    Ms. Kelly. So is DHS working to incorporate election 
infrastructure security into the other existing strategic 
plans?
    Mr. Krebs. The DHS cyber strategy that you referenced is 
actually agnostic to any specific sector or any specific issue 
set. It empowers subsequent tailoring of further plans against, 
for instance, election infrastructure and that sector-specific 
plan. It recognizes the role of the National Infrastructure 
Protection Plan. It, too, is an umbrella document. It says 
there are 16 sectors with sub-sectors, and each of those 
sectors and sub-sectors has individual tailored plans with 
metrics, with plans of action, and mechanisms and methodologies 
for engaging the entire stakeholder set.
    Ms. Kelly. Okay. And, Director Krebs, the President's 
Fiscal Year 2020 budget proposal would cut funding for the 
Cybersecurity Infrastructure Security Agency from its 2018 and 
2019 Fiscal Year levels. This is especially troubling since 
2020 is a Presidential election year, and we know Russia and 
other malign actors are likely to target our infrastructure and 
political discourse, as they did in 2016.
    Did you or others in CISA ask for more funding from the 
President before he released his budget proposal?
    Mr. Krebs. So, we certainly contributed to the development 
of that budget. It, as I see it for CISA, is a maintenance 
budget that sustains operations as they exist now. With more, 
of course, we could do more, just as Chairwoman McCormick 
mentioned. I will note that that is the first budget released 
under my authority as the Director of CISA. It reflects my 
priorities. It reflects the fact that it is the first time in a 
budget we have actually requested election-specific funding. 
Prior, the $59.4, $8 million over 2018 and 2019, were 
graciously provided by Congress, and we thank you for that. 
This 2020 budget actually says we want to continue this. We 
need to continue growing our capacity to help EAC, to help 
state and local election officials boost their cybersecurity.
    Ms. Kelly. Because I know people, you want to take--we want 
to give you the world; you are probably going to take it. But 
are you satisfied? Is it enough to do what you need to do?
    Mr. Krebs. You know, with more, I can do more. As I 
mentioned, $59.4 is the most I am aware of for any specific 
sector or sub-sector within the Department of Homeland 
Security's budget history. Just recently we released what is 
known as the National Critical Functions Set, which breaks out 
the 16 sectors into 55 different functions that underpin the 
economy, public health and safety, national security. I think 
with a cost buildup approach across those 55 sectors, there are 
a lot of things we could do positively to improve the 
cybersecurity and physical security, frankly, of this Nation.
    Ms. Kelly. And with the money that you are getting, is 
there anything you would have to cut or cut out or lessen?
    Mr. Krebs. No, ma'am. I think in the 2020 budget, I think 
what you are seeing is the rationalization of some Tier 1 
acquisition programs, the life-cycle cost adjustments, and also 
finding some efficiencies in other contracting programs. What I 
am aiming to do is to push more resources out into the field 
so, in part, I can minimize travel out of D.C. and have more 
locally based assets. I can have the best tools, techniques, 
and capabilities in the world, but if they are sitting in D.C. 
and I don't have people out in the field to help carry them out 
through the Secretaries of State, election directors, chief 
security officers, whatever they are, then I am not optimized.
    Ms. Kelly. Okay, thank you.
    CISA and DHS have key roles to play in securing our 
elections. Your Department needs to be ready, as you know, to 
face down these threats and to help the states secure their 
infrastructure. We will make sure you have the resources you 
need to do so. It is important to all of us.
    Mr. Krebs. Thank you, ma'am.
    Mr. Lynch. The gentle lady yields back?
    Ms. Kelly. Oh, sorry. Yes, I yield back.
    Mr. Lynch. That is Okay.
    The Chairman recognizes the gentleman from Maryland, Mr. 
Sarbanes, for five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you for the 
opportunity to participate today.
    So, we all know what happened in the 2016 election. We know 
what happened in the midterms in terms of attacks. We did a 
pretty good job, from what I am hearing, of rebuffing those 
attacks. But now we are looking down the barrel of the 2020 
elections. Our intelligence community is obviously warning us 
that we are going to be attacked again. In fact, FBI Director 
Wray made the claim that he believes Russia treated the 2018 
election as ``a dress rehearsal for the big show in 2020.'' So 
the red lights are blinking, the alarm bells are going off. We 
are under attack. It is clear to everybody.
    Unfortunately, the attempts to elevate attention to this 
and prepare for it in advance of 2020 have been met with 
hostility by officials at the highest level of our government. 
In fact, Mick Mulvaney was reported to have said that election 
security ``wasn't a great subject and should be kept below 
his''--meaning the President's--``level.'' And just last week 
the Senate Rules Chairman, Roy Blunt, admitted that Senate 
Majority Leader McConnell won't allow a vote on election 
security legislation ``no matter the policy and no matter the 
approach.''
    When we passed the For the People Act in the House, House 
Democrats essentially introduced a comprehensive set of 
election security reforms that would protect the ballot box, 
that would stymie disinformation campaigns, close loopholes 
that allow foreign governments to intrude into our democracy. 
Title 3 of H.R. 1 was just reintroduced by the Democrats as a 
stand-alone bill that would address all of these important 
issues and provide states and local governments with the 
resources that you have described are necessary to make sure we 
are ready for 2020.
    So there are solutions that we have. We encourage and ask 
our friends across the aisle to join us in this effort. This is 
about American patriots, not Republicans or Democrats, fighting 
back against these attacks on our democracy. So I thank you all 
for being here.
    I have a couple of questions, Commissioner Weintraub, for 
you. Before I ask them, I did just want to say for the record I 
have some significant concerns about the interpretive rule that 
you announced earlier regarding the building fund account, both 
as a matter of rulemaking authority within the FEC, but also as 
a matter of policy. I definitely agree that we have to do more 
to provide resources to our political parties to bolster their 
cyber defenses, but I don't agree that the approach of relying 
on big donors to do so, that that is the solution, and I am 
going to offer some legislation that might pose an alternative 
way forward and look forward to having a discussion with you 
about that.
    You said that we should not trust the next panel if they 
tell us they got this. I hear you on that. I am a little 
worried that, if the building fund is opened to big-donor 
contributions, they might say with respect to that ``I got 
this,'' if you get my drift. So that is the concern I have.
    Let me ask you a couple of questions.
    Ms. Weintraub. Could I comment on that, please?
    Mr. Sarbanes. Well, let me get my questions in, and then if 
you want to come back.
    The Special Counsel chose not to prosecute campaign 
officials for coordinating with the Russian government, and he 
said his office's understanding of Federal law concerning 
coordination was that you need an agreement, tacit or express. 
But there is a definition of ``coordination'' in campaign 
finance existing law, and McCain-Feingold expressly provided 
that the FEC ``shall not require agreement or formal 
collaboration to establish coordination.'' Is that your 
understanding of existing campaign finance coordination law?
    Ms. Weintraub. It is.
    Mr. Sarbanes. Thank you very much.
    Much has been made of the Special Counsel's inability to 
value the opposition research that was solicited by campaign 
officials, thereby informing the Special Counsel's decision to 
not prosecute officials for an illegal solicitation of a 
foreign government. In other words, they are saying we have no 
way to figure out what the value of that is. But cash 
contributions from foreign nationals are strictly prohibited 
under existing campaign finance law. It could be one penny; it 
is expressly and strictly prohibited.
    So for purposes of the foreign national prohibition, does 
the monetary value of an in-kind contribution matter, or should 
Congress clarify that all in-kind contributions, much like cash 
contributions, be prohibited? Do you think that would be a good 
measure for us to undertake?
    Ms. Weintraub. I believe that the current law is broad 
enough to encompass in-kind contributions. However, I think 
that clarification would be helpful, because my view of the law 
is not always shared by my colleagues.
    Mr. Sarbanes. Right. Well, hopefully we can undertake that 
and make that clarification, and that will be another way of 
protecting our elections going forward.
    I have run out of time. I am sorry, but we can continue the 
conversation offline.
    I yield back.
    Ms. Weintraub. Fair enough.
    Mr. Lynch. The gentleman yields, and I thank you.
    Ms. Weintraub, I would like to come back to that question. 
I see the light bulb over your head and it seemed like you had 
something you were eager to contribute, so I do want to give 
you that opportunity. So just hold that thought.
    Ms. Weintraub. Okay.
    Mr. Lynch. The Chair now recognizes the gentleman from 
Maryland, Mr. Cummings, for five minutes.
    Mr. Cummings. Thank you very much.
    Mr. Lynch. The Chairman of the full committee.
    Mr. Cummings. Thank you.
    Director Krebs, your Department is at the tip of the spear 
when it comes to protecting our elections. One of my worries, 
however, is that DHS and the Cybersecurity and Infrastructure 
Security Agency do not have enough employees specifically 
focused on securing our election infrastructure. According to 
the DHS Inspector General report released in February 2019, 
while DHS had one or two advisers to cover its 16 critical 
infrastructure areas, the Department, and I quote, ``does not 
have dedicated staff focused on election infrastructure.'' The 
Inspector General's Office interviewed stakeholders who, and I 
quote, ``expressed concerns about adequate DHS staffing, which 
they reported hindered their ability to develop relationships'' 
with the Department.
    How would you respond to that concern? Because it is a very 
serious one.
    Mr. Krebs. I think at a point in time it was absolutely 
true. In 2016, I think the only people really in the Federal 
Government that understood elections was Chairman McCormick and 
her team and Chairman Weintraub. We came into this thing brand 
new. Again, we are cybersecurity and physical security experts. 
We still are. They are the election experts. We are the 
security experts that come in and support.
    So when you talk about the pointy tip of the spear, it is a 
big, big spear. There are a lot of us on this team. So we 
support state and local officials. We support the EAC. We 
support the DOJ and FBI. This is a team effort.
    At this point we have invested, with Congress' 
appropriations, to support our election infrastructure team. I 
have 17 full-time personnel dedicated to this issue, but I also 
have the capability to reach into my entire organization and 
draw any resource needed.
    In the run-up to the 2018 midterm elections, in the month 
prior to the election, I had over 550 individuals that were 
working at the national, local, state level on elections. That 
is pretty good. I can do better, I can do better. We can 
continue to work with the EAC. We can continue to work with 
state and locals. We can continue to invest in our people, and 
our capabilities get more scalable, and that is my plan for 
2020. We will have more full-time dedicated staff. I will have 
more field staff to engage and ensure that 2020 is the most 
secure election ever.
    Mr. Cummings. So how many people will be permanent? Are 
these basically temporary employees you are talking about 
coming in, talking sort of seasonal?
    Mr. Krebs. So DHS, keeping in mind DHS was established as a 
bit of a surge organization, right? Whether it is a hurricane 
or some other national emergency, we are able to surge 
capabilities. So for 2018, we surged. We established task 
forces. We cobbled together as many people as we could that had 
relevant expertise. Over that time, we also institutionalized 
as a program. So we have established since an election 
infrastructure security program, an initiative, that is 
dedicated permanent staff. My hope is by 2020 we will be well 
over two dozen, pushing 30 personnel, dedicated full-time, but 
able to draw on my field staff.
    My field staff in the last two years, the demand signal for 
election infrastructure support services has surged to the 
point where it is basically a half-time job for my field team. 
On the other half, they are doing school safety, houses of 
worship, active shooter soft-target type work.
    Mr. Cummings. Have you or your deputies asked CISA 
employees to deploy to the U.S.-Mexico border?
    Mr. Krebs. Yes, sir. As a matter of fact, the entire 
Department asked that the components, whether it is TSA, FEMA, 
anyone else, consider volunteering, or their personnel consider 
volunteering to go down and help some of the logistic support 
down at the border.
    Mr. Cummings. So how many of your employees at CISA have 
been sent to the border, and how many more are expected to be 
sent?
    Mr. Krebs. Across the agency, 10 have deployed, and I think 
we have another 10 that are in an availability period where 
they may deploy down, keeping in mind that across the agency I 
have about 2,200 personnel. About 900 of them are cybersecurity 
focused. Another 800 are physical security focused. I have some 
communications specialists that are actual emergency 
communications specialists, and I have mission support 
personnel.
    There will be risk-based decisions on people that deploy to 
the border. If it is an election issue, if it is a critical 
cyber operation, we will have conversations with supervisors 
and understand whether that is something we need to reconsider.
    Mr. Cummings. It sounds like they will be doing a number of 
different jobs. Is that it? What will their responsibilities be 
down there by the border?
    Mr. Krebs. I would have to get back to you on the 
specifics. Acting Secretary McAleenan testified this morning in 
front of House Homeland and talked about this, but it is 
logistical jobs. In some cases it is attorneys, it is driving. 
The Federal Protective Service deployed some CDL drivers down. 
So there are a number of logistics and support functions.
    Mr. Cummings. If the Chairman would, just one last 
question.
    Are CISA employees appropriately trained and qualified to 
provide security and support, the intake of migrants at our 
southern border?
    Mr. Krebs. Sir, again, I suggest that we work with the 
Department legal team and the H.R. folks to figure out and 
explain what the actual functions are. My understanding, 
though, is that any person that goes to the border, whether it 
is from TSA, FEMA, CISA, anywhere, is going to have the 
appropriate training to do the function asked on the border.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Lynch. The gentleman yields back.
    The gentleman yields momentarily to Mr. Hice, the Ranking 
Member.
    Mr. Hice. Thank you, Mr. Chairman.
    Just a clarifying question, Mr. Krebs. Are you saying that 
more resources are needed at the border? Because you are 
sending people down there.
    Mr. Krebs. Yes, sir. I think that is consistent with the 
prior Secretary and the current Secretary's request.
    Mr. Hice. Thank you for that clarification.
    Mr. Lynch. The Chair recognizes the gentle lady from 
Florida, Ms. Wasserman Schultz, for five minutes.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    In 2018, the White House eliminated the cybersecurity 
coordinator position on the National Security Council.
    Mr. Hickey, the National Security Council is responsible 
for facilitating the implementation of Administration policy 
and coordinating national security-related activities across 
the interagency. Is that correct?
    Mr. Hickey. That is my understanding, ma'am.
    Ms. Wasserman Schultz. So would it be fair to describe the 
National Security Council as a rudder that steers the U.S. 
interagency?
    Mr. Hickey. I don't know if they would like that analogy, 
but they certainly play a critical coordinating role. They have 
convening authority, and we meet with them frequently for that 
reason.
    Ms. Wasserman Schultz. Given the attitude of this 
Administration, I agree, they probably wouldn't like that 
description, but practically applied that is what they do; 
correct?
    Mr. Hickey. They play a critical coordinating function 
across the interagency, yes.
    Ms. Wasserman Schultz. Thank you.
    Director Krebs, how has the absence of a cybersecurity 
coordinator at the National Security Council affected the 
Department's ability to coordinate its election security 
activity strategically and effectively across the interagency?
    Mr. Krebs. There is a PCC process established under NSPM-4 
with specific election security coordination. So we do work 
closely with the NSC, but it is also important to consider the 
fact that under the operational authorities that I have, that 
the DOJ, the FBI, the DIC, that DOD has, we are coordinating on 
a daily basis on operations, and then those inform the actual 
field activities. So I would not mistake the lack of a 
coordinator for lack of coordination. It happens because it is 
our job.
    Ms. Wasserman Schultz. Mr. Krebs, the last time we spoke 
was on May 1st, when you testified before the Appropriations 
Subcommittee on Homeland Security, and at that hearing you 
raised serious concerns about Russian operatives attempting to 
influence our 2020 elections. I asked you then if the President 
had received a briefing from you or anyone in your Department 
on potential Russian interference in our elections in 2020, and 
you said he had not received a briefing.
    Administration officials have offered plenty of sound bites 
suggesting the President is taking this issue seriously, so 
today I would like to ask you again. It is May 22, three weeks 
later. Has the President received a briefing from you or anyone 
in your Department about threats of foreign influence in the 
2020 election?
    Mr. Krebs. Ma'am, I am going to take your word for it that 
I said it that way.
    Ms. Wasserman Schultz. You did.
    Mr. Krebs. Okay. I am not privy to the President's daily 
brief. He sees a range of intelligence----
    Ms. Wasserman Schultz. I am asking if he has had a briefing 
by you or anyone in your Department about threats--I mean, you 
are responsible for election security--about threats----
    Mr. Krebs. The DNI, ma'am, is responsible for working with 
the President on intelligence matters. I am responsible for 
helping state and locals protect their systems.
    Ms. Wasserman Schultz. When I asked you at that meeting, 
you said to your knowledge, you said the President did not have 
a briefing on the threats potentially facing us in the 2020 
election. Is that still true, to your knowledge?
    Mr. Krebs. Certainly for me. Yes, ma'am, certainly for me.
    Ms. Wasserman Schultz. Okay. Director Krebs, during a House 
Homeland Security Subcommittee hearing on April 30th, you 
described President Trump as, quote, ``the head coach for the 
Administration's cybersecurity strategy.'' I played team 
sports, so my question is if your head coach doubts the threat 
of foreign interference, how does your team prepare your 
defense, our defense, against our adversaries?
    Mr. Krebs. Ma'am, as I discussed in that hearing, as I have 
discussed with you in the Appropriations hearing, the President 
supports the conclusions of the intelligence community 
assessment of January 2017. He said that on the record several 
times. So I have the guidance, I have the steerage I need from 
the coach. We are executing. We are working closely with the 
Department of Justice. We are working closely with the FBI. We 
work closely with the intelligence community and the Department 
of Defense. I have the guidance, I have the direction, I have 
the strategy I need to be effective to support Chairwoman 
McCormick and her constituents in the state and local election 
community.
    Ms. Wasserman Schultz. Okay. Well, President Trump has 
repeatedly publicly expressed doubt about Russian foreign 
interference in our elections. So how can we expect you and 
your colleagues here to tackle these threats if you don't have 
full buy-in from the White House, all the way to the top?
    Mr. Krebs. Ma'am, again, he supports the intelligence 
community assessment in 2017. I take him at his word. I have 
what I need to go----
    Ms. Wasserman Schultz. Reclaiming my time, I take him at 
his word, because his words and deeds have demonstrated that he 
doesn't think that there was Russian interference. He has said 
that out loud. And his actions, particularly as it relates to 
not taking it seriously enough to even bother to have an 
election security briefing in advance of the 2020 elections, is 
mind-blowing.
    Mr. Krebs. Ma'am, again, I am not privy to every briefing, 
every meeting he gets.
    Ms. Wasserman Schultz. I know, but I am just going by your 
answer to my question when I asked you, and I want to thank my 
colleagues who raised rightful concerns today about the lack of 
transparency regarding the hacking of two counties in 
particular in Florida.
    We received a briefing from the FBI, along with the rest of 
our Florida delegation members, and while I can't share the two 
counties that were hacked, I believe that investigators should 
not be withholding that information from the real victims here, 
the voters in those counties. The lack of transparency from top 
to bottom in this Administration is stunning, and it diminishes 
voters' confidence in our election system, makes voting less 
likely, which unfortunately I think demonstrably has been shown 
is this Administration's true interest.
    Thank you. I yield back.
    Mr. Lynch. The gentle lady yields back.
    In concluding the business of this panel, Ms. Weintraub, I 
want to just address a question to you, and I know you had 
touched on this earlier in your opening remarks.
    During the 2016 election, the Russian-based Internet 
Research Agency conducted its disinformation campaign not only 
by posting through fake accounts but also by purchasing ads on 
various social media platforms. I believe in some cases they 
paid in rubles, which should have been a tip.
    Commissioner Weintraub, later today we will hear from 
Twitter, Facebook, and Google, your friends over there. I know 
you were throwing a little bit of shade on them earlier about 
their efforts to increase political ad disclosures on their 
sites. But given your role, your specific role with the Federal 
Election Commission, I would like to hear your insights on this 
issue.
    Ms. Weintraub. Well, first of all, let me say that I do 
think that the platforms are trying. They have taken steps and 
they are able to move quickly in a way that I sometimes can't. 
I have been trying to adopt new regulations on this, and it has 
just been bogged down at the FEC in terms of not getting an 
agreement from my colleagues on exactly what they are willing 
to agree to. So that is a point of frustration for me.
    But I think that the point that I am trying to make about 
the platforms is that I really don't think this is something we 
should leave entirely in the hands of the private sector, 
because what they decide to do today they could take back 
tomorrow and decide to do something less. So I think the 
government has a role here to set standards and to make sure 
that the platforms are complying with them, because it is an 
awful lot of power that they have.
    Mr. Lynch. Okay. Thank you very much.
    I think this panel has suffered enough, and I want to thank 
you for your attendance. If there are any further questions by 
the members, obviously they can submit them in writing and we 
will forward them to you, if you would be so kind as to answer 
them in due course as rapidly as possible.
    So this panel is recessed, and we would ask the next panel 
to come forward, and we will continue with the hearing. Thank 
you.
    [Pause.]
    Mr. Lynch. We now welcome our final witnesses on the second 
panel and thank them for their testimony and their patience.
    First of all, I would like to introduce the Honorable Bill 
Galvin, Secretary of the Commonwealth of Massachusetts, a dear 
friend and someone who I personally consider to be one of the 
foremost experts on our election systems, and I think he has 
done a remarkable job on behalf of our state where we have both 
a very secure digital system as well as a paper back-up system, 
which I think is commendable.
    Richard Salgado, the Director of Law Enforcement and 
Information Security with Google.
    Nathaniel Gleicher, Head of Cybersecurity Policy with 
Facebook.
    And Kevin Kane, Public Policy Manager with Twitter.
    If the witnesses would be so kind as to rise and raise your 
right hand, I will begin by swearing you in.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that the witnesses have all 
answered in the affirmative.
    Thank you, and please be seated.
    The microphones are sensitive, so please speak directly 
into them.
    Without objection, your written statements will be made a 
part of the record.
    And with that, Secretary Galvin, you are now recognized to 
give an oral presentation of your testimony.

   STATEMENT OF BILL GALVIN, SECRETARY OF THE COMMONWEALTH, 
                         MASSACHUSETTS

    Mr. Galvin. Thank you, Chairman Lynch and Ranking Member 
Hice, and distinguished committee members of the Subcommittee 
on National Security, for inviting me to testify today on the 
safety and security of the Nation's election infrastructure and 
the ongoing misinformation attempts to influence public opinion 
and trust in our election system.
    As you noted, my name is Bill Galvin, and I have been the 
Secretary of the Commonwealth of Massachusetts since 1995. 
During my tenure as Secretary, I have worked hard to ensure 
elections in Massachusetts are fair, honest, and accurate. I am 
proud of that effort. My office has successfully implemented a 
statewide data base after passage of the National Voter 
Registration Act and continues to make improvements to 
implement state and Federal laws, including the Help America 
Vote Act.
    In recent years, however, new challenges have emerged. I 
don't need to tell this committee what they are. I think you 
have discussed it very thoroughly here. I am here today to 
share with you the best practices we are using in Massachusetts 
and explain the challenges we face and what must be done moving 
forward.
    Before addressing these topics, I think it is important to 
note the differences in election administration throughout the 
country and how this leads to unique challenges. Unlike the 
majority of the country in which election administration is 
county-based, in Massachusetts and the rest of New England, as 
well as in Michigan and Wisconsin, elections are conducted on a 
municipal level with local election officials in each of the 
cities and towns. Local election officials in Massachusetts, 
many of whom have responsibilities beyond elections such as 
vital records, and some of whom are part-time, have varying 
skills and expertise in security and overall information 
technology knowledge, as well as varying access to the 
resources likely available to county officials, such as onsite 
technical help.
    Our best practices are pretty basic. Voting equipment in 
Massachusetts, all voters vote on paper ballots, and during my 
administration that has been something I have insisted on. Some 
ballots are hand counted, but most are tabulated through 
scanners. Tabulators must be federally certified and then state 
certified. Tabulators are not connected to the Internet, to 
each other, or to any external device, either by Wi-Fi or hard 
wire. Tabulators are required to undergo public logic and 
accuracy testing before every election. Clerks test the 
machines using the same ballot that will be used on election 
day. Tabulators are locked into the ballot box throughout the 
day. The keys to the ballot box and the tabulator are held by 
the police officer present in every polling location. In the 
event of a machine failure, voting continues and the ballots 
are hand-counted in public view at the end of the night. In the 
event of power failure, tabulators have a back-up that allows 
them to continue to operate.
    In the event of an emergency or machine failure, the paper 
ballot can be hand-counted by poll workers. Voting can continue 
despite the power failure or natural disaster or other 
emergencies. Official results of the election are recorded by 
hand and certified. Official returns of the votes are entered 
into the statewide data base, and the official report must be 
printed, signed, and certified by the clerk and transmitted by 
mail.
    Our statewide data base of voter registration is not on the 
Internet. My office maintains and supports the statewide data 
base voter registration system, VRIS. VRIS can only be accessed 
through an isolated network that connects each of the local 
election officials to my office. VRIS is not available via the 
Internet, as I have said. Users can only access the statewide 
data base using the work stations and equipment provided by my 
office.
    The network is monitored. Albert sensors throughout the DHS 
are installed on the network. Each user has a unique username 
and a complex password. Users have separate logins for 
computers and for VRIS application on the computer. User 
transactions are logged with a date and time of the action 
taken.
    The general cybersecurity is something that has always been 
a concern. Even prior to the spotlight on cybersecurity in 
2016, we had worked to develop our data network and keep it 
secure. Prior to 2016, we contracted with independent vendors. 
Since the threat emerged in 2016, efforts have increased, 
including the addition of staff and tools to ensure the network 
and infrastructure. Using the new HAVA funds, we have created a 
robust cybersecurity team staffed by professionals. We use 
proper protocols and passwords to make sure it is done.
    I want to focus in the seconds that I have left on what I 
think is the overarching issue that has to be dealt with, the 
urgency of action. This election is now less than 18 months 
away. If there is going to be any practical impact on what 
happens in 2020 given the threats that have been discussed here 
today, urgent action is needed, particularly at the level of 
the EAC. Even in a state like mine, where equipment is used for 
paper ballots, the need to process and certify new equipment is 
urgent. The bureaucracy has to be streamlined. Action must be 
taken now.
    Given the amount of time left to acquire new equipment, to 
train people on it, and to have it in service on election day 
in 2020, there is no time. There is no time for bureaucracy. As 
somebody who has successfully run bureaucracies now for almost 
25 years, I will tell you that the only way to get that kind of 
action is to demand time standards to make sure it is done.
    Absent that effort, there will still certainly be problems 
with equipment and with process in 2020, the very problems that 
this committee has convened to hear about today. It is urgent 
that this committee urge the Congress and the Administration 
and the EAC and all the Federal bureaucracies that are here 
today to take action and to take it now to support the State 
officials involved.
    Thank you very much for your attention.
    Mr. Lynch. Thank you, Secretary Galvin.
    Mr. Gleicher, you are recognized for five minutes.

STATEMENT OF NATHANIEL GLEICHER, HEAD OF CYBERSECURITY POLICY, 
                            FACEBOOK

    Mr. Gleicher. Chairman Lynch, Ranking Member Hice, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today. My name is Nathaniel Gleicher, and I 
am the Head of Cybersecurity Policy at Facebook. My work is 
focused on addressing the serious threats we face to the 
security and integrity of our networks and services. I have a 
background in both computer science and law. Before coming to 
Facebook, I prosecuted cybercrime at the U.S. Department of 
Justice and built and defended computer systems and networks.
    Facebook cares deeply about defending the integrity of the 
democratic process. We don't want anyone using our tools to 
undermine elections or democracy. We have dedicated substantial 
resources to finding and removing malicious activity on our 
platforms. In fact, we have more than 30,000 people working on 
safety and security across the company, reviewing reported 
content in more than 50 languages, 24 hours a day. That is 
three times as many people as we had in 2017. And we have 
nearly 40 different teams focused particularly on election work 
across Facebook's family of apps.
    We drive our election integrity efforts through a 
combination of automated systems and expert investigative 
teams. Our automated tools operate at scale, making any 
attempted bad behavior more difficult, while our expert 
investigators tackle the newest and fastest-moving threats. 
This combination ensures that we can continually evolve our 
responses as the threats change, identifying new trends early 
and staying ahead of them as they develop.
    We aren't perfect, and this is an ongoing challenge, but we 
are improving every day.
    Our election integrity efforts are focused on four major 
areas: blocking and removing fake accounts; finding and 
removing bad actors; limiting the spread of false news and 
misinformation; and increasing transparency for political 
advertising.
    First, fake accounts are often behind harmful and 
misleading content, and we work hard to keep them off Facebook. 
In fact, we identify and remove millions of fake accounts from 
the platform every day, many shortly after they have been 
created.
    Second, we focus on networks of deceptive behavior, which 
we call coordinated inauthentic behavior, or CIB. This is when 
networks of accounts, pages, or groups work together to mislead 
others about who they are or what they are doing. When we 
remove a network for engaging in CIB, it is because of the 
deceptive behavior that the group engages in--for example, 
using fake accounts to conceal their identity--not because of 
the content they post, the actors they represent, or the views 
they espouse.
    We ban this kind of behavior so people trust the 
connections they make on Facebook. And while we have made real 
progress, it is an ongoing challenge because the actors engaged 
in this behavior are determined and often well-funded. We have 
to improve to stay ahead of them, including by building better 
technology and working more closely with law enforcement, 
security experts, and other companies.
    Third, to combat false news, we follow a three-part 
framework. We remove content that violates our community 
standards. For content that doesn't directly violate our 
community standards but still undermines the authenticity of 
our platforms, like click bait or sensational material, we 
reduce its distribution so fewer people see it, and we give 
people more context about the information they see in News 
Feed.
    Finally, when it comes to political advertising, 
transparency is critical. We work to ensure that people are 
able to understand easily why they are seeing ads, who paid for 
the ads, and what other ads that advertiser is running. We also 
require election-or issue-related ads on Facebook and Instagram 
to be labeled clearly, including a ``paid for by'' disclosure 
from the advertiser at the top of every ad.
    In support of all of these efforts, we opened our first 
physical election operation center at our headquarters in Menlo 
Park in advance of the U.S. midterms last year. We have a 
dedicated team already focused on preparing for the 2020 
election, and we will have an operation center set up to 
support that effort.
    We are proud of our ongoing work to protect the integrity 
of our elections, but we know there is more to do. This is 
fundamentally a security problem. As we continue to improve our 
defenses, bad actors evolve their tactics. This is also a 
whole-of-society challenge, which is why we focus on working so 
closely with our colleagues in industry, in government, and in 
civil society.
    We will never be perfect, and we are up against determined 
adversaries, but we are committed to doing everything we can to 
strengthen our civic discourse and protect elections.
    Once again, thank you very much for the opportunity to be 
here today, and I look forward to answering your questions.
    Mr. Lynch. Thank you, Mr. Gleicher.
    Mr. Kane, you are recognized for five minutes.

    STATEMENT OF KEVIN KANE, PUBLIC POLICY MANAGER, TWITTER

    Mr. Kane. Chairman Lynch, Ranking Member Hice, and members 
of the subcommittee, I am grateful for the opportunity to 
appear before you today.
    Twitter's purpose is to serve the public conversation, and 
the public conversation occurring on Twitter is never more 
important than during elections. I have provided more detail in 
my written testimony but would like to briefly outline some of 
the most important work we are doing to support the integrity 
of our elections by fighting platform manipulation and 
increasing transparency.
    As the Internet evolves, so too do the challenges and 
opportunities society faces. Following the 2016 U.S. elections, 
Twitter's entire strategic posture changed. Collaborative 
partnerships with peer companies, Federal agencies, law 
enforcement, state governments, and civil society organizations 
were key to our preparation ahead of the 2018 U.S. midterms.
    Since January 2017, we have launched dozens of product and 
policy improvements, expanded our enforcement and operations, 
and strengthened our team structure, all designed to foster the 
health of the service and protect the people who use Twitter. 
We continue to promote the health of the public conversation by 
countering all forms of platform manipulation. We define 
platform manipulation as using Twitter to disrupt the 
conversation by engaging in bulk, aggressive, or deceptive 
activity.
    We have made significant progress. In fact, in 2018 we 
identified and challenged more than 425 million accounts 
suspected of engaging in platform manipulation, of which 
approximately 75 percent were ultimately suspended. We are 
increasingly using automated and proactive detection methods to 
find misuses of our platform before they impact anyone's 
experience. More than half of the accounts we suspend are 
removed within one week of registration, many within hours. We 
will continue to improve our ability to fight manipulative 
content before it affects the experience of people who use 
Twitter.
    In addition to our efforts to safeguard the platform, we 
are committed to providing greater transparency around the 
conversation regarding elections. We believe transparency is a 
proven and powerful tool in the fight against misinformation 
and disinformation campaigns. We have taken a number of actions 
to disrupt foreign operations and limit domestic efforts at 
voter suppression, and have significantly increased 
transparency around these actions. We publicly released in 
January a retrospective review of the activity that occurred on 
Twitter regarding the 2018 U.S. midterm elections. Last fall's 
midterms were the most tweeted about midterm elections in 
history. Twitter facilitated a robust global conversation that 
included more than 99 million tweets from the first primaries 
in March through election day. I have provided a full copy of 
our report, along with my submitted testimony, to be included 
in the record.
    Our commitment to transparency extends to providing a 
unique archive of information operations to the public and 
researchers. We have provided data and information on more than 
9,600 accounts, including accounts originating in Russia, Iran, 
and Venezuela, totaling over 25 million tweets. It is our 
fundamental belief that these accounts and their content should 
be available and searchable so members of the public, 
governments, researchers, and the broad community can 
investigate, learn, and build media literacy capabilities for 
the future.
    Information operations are nothing new and have been a tool 
since before the dawn of social media. These operations 
continue to adapt and change as the geopolitical terrain 
evolves worldwide and as new technologies emerge. For our part, 
we are committed to understanding how bad-faith actors use our 
services.
    We also have provided additional transparency with regard 
to paid advertisements on Twitter. Last year we launched our 
Ads Transparency Center where anyone, whether they have a 
Twitter account or not, can search for all ads running on the 
platform. You are able to find in our Ads Transparency Center a 
significant level of detail associated with each ad, including 
billing information, ad spend targeting, and impression data.
    As I previously mentioned, partnerships are critical to 
this work, including collaboration with Federal, state, and 
local election officials. Since 2016, we continue to strengthen 
relationships with law enforcement agencies, including the 
Federal Bureau of Investigation's Foreign Influence Task Force 
and U.S. Department of Homeland Security. Indeed, on election 
day for the 2018 U.S. midterms, Twitter virtually participated 
in an operation center convened by the U.S. Department of 
Homeland Security.
    In closing, our efforts enable Twitter to fight this threat 
while maintaining the integrity of people's experiences on 
Twitter and supporting the health of the conversation on our 
service. Our work on this issue is not done, nor will it ever 
be. I appreciate the opportunity to share our work with the 
members of this subcommittee.
    Mr. Chairman, I would like to thank you again for calling 
this important hearing, and I look forward to your questions.
    Mr. Lynch. Thank you, Mr. Kane.
    Mr. Salgado, you are now recognized for five minutes.

 STATEMENT OF RICHARD SALGADO, DIRECTOR OF LAW ENFORCEMENT AND 
                  INFORMATION SECURITY, GOOGLE

    Mr. Salgado. Chairman Jordan, Chairman Lynch, Ranking 
Member Hice, and members of the committee, thank you for 
inviting me to testify today about Google's efforts to promote 
election integrity. I appreciate the opportunity to discuss our 
efforts in this space.
    My name is Richard Salgado. As the Director of Law 
Enforcement and Information Security at Google, I work with 
thousands of people across teams at Google to protect the 
security of our networks and user data.
    Google's mission is to organize the world's information and 
make it universally accessible and useful. Efforts to undermine 
the integrity of democratic elections are antithetical to that 
mission.
    In my testimony today, I will focus on four areas where we 
are making progress to help ensure the integrity of elections. 
First, we are working to empower people with information they 
can trust when going to the polls. Second, we are helping 
defend campaigns, candidates, and others from network attacks. 
Third, we are combatting misinformation. And fourth, we are 
improving transparency of election advertisements.
    I will start by addressing a few of the ways we are helping 
to empower people with information about their elections. We 
created our search engine in 1998 with a mission of providing 
greater access to information. To this end, Google aims to make 
civic information more easily accessible and useful to people 
globally.
    In 2018, for example, we helped people in the U.S. access 
authoritative information about registering to vote, locations 
of polling places, and the mechanics of voting. We have 
partnered with organizations like the Voting Information 
Project and with the offices of 46 Secretaries of state to 
achieve this goal. On election day, we serviced election 
results for U.S. Congressional races directly in Search in over 
30 languages.
    We have also made voting information freely available 
through the Google Civic Information API. Over 400 sites have 
availed themselves of this API.
    Google also offers a broad array of services and tools to 
help campaigns, candidates, and election officials reduce the 
likelihood of a successful security breach. We have multiple 
internal teams that work together to identify malicious actors, 
disable attacker accounts, secure victim accounts, and share 
threat information with other companies and law enforcement 
officials. In addition, Google's Threat Analysis Group, a 
dedicated team of security professionals, further detects, 
prevents, and mitigates government-backed threats, including 
through the use of warnings to users when we believe they may 
have been the targets of government-backed attacks.
    In 2017, we unveiled the Advanced Protection Program, which 
provides the strongest account protection that Google offers. 
As part of that program, we have conducted extensive outreach 
to promote the use of security keys, which protects users from 
more sophisticated and targeted phishing campaigns.
    Similarly, Google's safe browsing tool helps protect more 
than 4 billion devices from phishing. Safe browsing hunts and 
flags malicious extensions, helps block malicious ads, and 
shows warnings about websites it considers dangerous or 
insecure.
    Separately, Google and Alphabet's Jigsaw Group have 
partnered on Protect Your Election, a suite of tools to help 
campaigns, candidates, and election-related websites protect 
themselves online. The initiative includes Project Shield, a 
free tool to mitigate the risk of distributed denial-of-service 
attacks.
    We also recognize that it is critically important to combat 
misinformation in the context of democratic elections. This is 
especially important when users are seeking accurate, trusted 
information that will help them make critical decisions. We 
have a natural, long-term incentive to prevent anyone from 
interfering with the integrity of our products, and we have 
worked hard to curb misinformation.
    Our efforts include designing better ranking algorithms and 
implementing tougher policies against misleading behavior, and 
deploying multiple teams to identify and take action against 
malicious actors.
    At the same time, we have to be mindful that our platforms 
reflect a broad array of sources and information, and there are 
important free speech considerations. There is no silver 
bullet, but we will continue to work to get it right.
    We have also been working hard to make election advertising 
more transparent. In 2017, we committed to making improvements 
to this important area, and we have delivered on our 
commitment. This includes a verification program for 
advertisers purchasing U.S. Federal election ads, in-ad 
disclosures of the name of the advertisers and, of course, a 
transparency report for election ads.
    Looking forward, we are thinking hard on how to bring more 
transparency to election advertising online.
    In conclusion, we appreciate that there is no panacea for 
the challenges that lie ahead, and we commend the committee for 
its efforts to ensure that we are collectively taking concrete 
steps to protect the integrity of our elections. Google is 
committed to building on our progress.
    Thank you for the opportunity to address these issues, and 
I look forward to your questions.
    Mr. Lynch. Thank you.
    There are currently seven votes scheduled on the floor. 
There is no time remaining prior to votes commencing. There are 
260 members not voting yet, among us as well. So we will recess 
for those seven votes, and the committee will reconvene five 
minutes after the last votes on the floor. Thank you.
    [Recess.]
    Mr. Lynch. Welcome back. We apologize for the delay with 
votes on the floor.
    I now yield myself five minutes for questioning.
    Secretary Galvin, the Omnibus Appropriations Act, enacted 
by Congress back in March 2018, included about $380 million for 
grants distributed under HAVA, the Help America Vote Act, to 
assist states in securing their voting systems against 
malicious cyber-attacks and other vulnerabilities. HAVA marked 
the first Federal appropriation for this purpose in over 10 
years.
    In July of last year, the U.S. Election Assistance 
Commission announced that each of the 55 eligible states and 
territories had already requested 100 percent of the newly 
appropriated funds. According to the Election Assistance 
Commission, the Commonwealth of Massachusetts applied for and 
received nearly $8 million in grant funding. Is that correct?
    Mr. Galvin. Yes.
    Mr. Lynch. I think you are sort of a model situation where 
we have a paper back-up system. I vote there, so I am well 
aware of your system. Can you discuss some of the key election 
components where you applied that money, and maybe some gaps 
that continue to exist that could use some additional funding?
    Mr. Galvin. Well, first of all, Mr. Chairman, we had a 
pretty good system regarding our data base. Primarily it was on 
the data base side, what we used the appropriation for. As I 
mentioned during my regular testimony, we had vendors hired to 
make sure to protect our system.
    With the new moneys that were made available, we upgraded, 
and as a result we were not subjected to attempted hacking in 
2016, or so we were informed by Homeland Security. 
Nevertheless, as I frequently have pointed out, while the focus 
appropriately is on foreign action, it is also possible people 
domestically could do it.
    Mr. Lynch. Oh, sure.
    Mr. Galvin. As you are well aware, we have many 
institutions of higher learning in Massachusetts who have 
students who think they are geniuses, and probably are. The 
fact of the matter is, it is a challenge for them to think 
about breaking into things like our system.
    So what I did after getting the new funds was to upgrade 
the quality of the security we had. We also have a specific 
person on staff now who only deals with cybersecurity issues. 
We continue to look forward to ways to implement our system.
    The data base we created or we built is now approaching its 
20th anniversary. We are going to have to replace all of it 
after the 2020 election. So we are looking to ways to make it 
more secure.
    As I also mentioned in my affirmative testimony, because of 
the network by which we operate in Massachusetts and other New 
England states where we rely upon local communities and local 
election officials, some of whom I don't appoint and have no 
direct control over, we have to try to integrate them into our 
system. So much of the funds have been used to try to do that, 
to upgrade the quality of what they are doing at their local 
level to protect against any sort of intervention there.
    With regard to equipment, we are looking at ways that in 
the future we can upgrade our equipment. One of the ways, for 
instance, where EAC action would be very helpful is electronic 
poll books. We are not allowing them to integrate with our 
system right now because we do have security concerns about 
them, but they could be helpful if there was a way to be 
assured of the quality of the security that they would be 
using, especially for things like early voting and other 
aspects of our election system.
    Mr. Lynch. Just to be clear, I know you testified that back 
in 2016, the analysis that was done, there were no breaches in 
Massachusetts.
    Mr. Galvin. That we were informed of. There had been 
attempts going back many years. We know something occurred, an 
attempt, but there have been no successful breaches as far as 
we know, and we----
    Mr. Lynch. What about 2018? What about the midterms?
    Mr. Galvin. Again, there were curious events that occurred 
but no breaches as far as we know.
    Mr. Lynch. Okay. I know this is an open forum, but to the 
extent possible, can you describe key actions that 
Massachusetts has taken to safeguard voting systems against 
that kind of foreign interference?
    Mr. Galvin. Again, as I mentioned, the key for us in terms 
of the equipment is we use a paper ballot system, so we also 
have the paper cards to fall back upon. So the only aspects of 
the system that could be electronically hackable would be the 
tabulators, which I mentioned again in my affirmative 
testimony. They are tested all the time. If there is a failure 
in the tabulator, we still have the cards to work with.
    The data base for voter registration information is not on 
the Internet, so we have kept it secure that way. We continue 
to have concerns, like I mentioned the electronic poll book. 
Some communities have used electronic poll books internally for 
early voting and things like that, but we don't let them 
connect it to our system.
    So there are concerns we have about all of these things 
that are going forward, and I don't think any of us can say we 
have a perfect system, nothing bad could ever happen to us. 
That is not true. We have to be vigilant.
    One of my great concerns, I mentioned this earlier, about 
the certification process is all of us at the local level, 
state and local level that are dealing with election 
administration are going to have to replace equipment. We need 
the EAC to move on equipment as fast as possible. It is not 
happening, and I think you brought that out today in the 
testimony you received from them. That is the biggest problem 
all of us have, no matter what kind of system you have right 
now, anywhere in the United States.
    Mr. Lynch. I do have one data point, that when we did the 
analysis, 45 states have systems that are no longer 
manufactured, no longer currently manufactured. That tells you 
how--these are legacy systems that are completely outdated.
    Mr. Galvin. We have communities--you are familiar with the 
city of Lawrence, Massachusetts. They are a poor community. 
They want to replace their equipment. They need to replace it, 
and everything if paper ballot. But still, with the 
technologies that are available, the ones they would like to 
buy haven't been certified. We are concerned that if they were 
to make an investment in the ones that are currently available 
and certified, they may be replaced within the next few years, 
during the life of the equipment they purchased, and not have 
any money to replace them with. So it is a dilemma.
    Specifically, I think we all see 2020 as having a very, 
very large turnout. We had a big turnout last year. We are 
going to have bigger turnouts in 2020. We all know that. And 
given the awareness the public has about voter security, which 
is a good thing for the most part, there is going to be 
anxiety. So we want to make sure we allay that anxiety by 
having the best equipment possible. Whatever state you are in, 
whatever kind of system you have that the local officials are 
trying to use, we want to give them the best equipment.
    The problem right now is to make sure the bureaucracy 
functions to effectively give local officials options when it 
comes to equipment. That is not happening.
    Mr. Lynch. Right. Thank you.
    I now yield five minutes to the Ranking Member.
    Mr. Hice. Thank you, Mr. Chairman.
    I knew coming into this, quite frankly, that we were going 
to hear the excellent work that these three companies are doing 
to try to safeguard their users from foreign interference. I 
get that.
    My concern, though, is the active engagement from these 
companies into the speech of users as a publisher rather than a 
platform. Just last week, I believe it was, a Facebook memo 
leaked that catalogued so-called ``hate agents,'' and of course 
it included some conservative individuals, Candace Owens. In 
fact, Mr. Speaker, I have a screenshot of that that I would ask 
unanimous consent be added to the record.
    Mr. Lynch. Without objection.
    Mr. Hice. Thank you.
    And I look at this with great concern. We have heard of it. 
We have had hearings about this type of thing.
    Mr. Gleicher, let me ask you, it has been confirmed from 
Facebook that these ``hate agent'' lists exist, and you guys 
are supposedly a neutral platform. But doesn't the existence of 
these type of actions really create a type of election 
interference that you are trying--at least you say that you are 
trying to avoid?
    Mr. Gleicher. Congressman, thank you for the question. So 
the question that you are asking is an important one. Facebook 
is a platform for ideas across the spectrum. Whenever we are 
thinking about creating a new policy or changing the line in a 
policy, one of the things that we do is we look at what effect 
that might have, and in particular would it have any unintended 
consequences.
    So in this context, we developed a list of people who are 
engaged in the public debate around white nationalism, white 
separatism, people who might be affected by this policy change, 
so that we could do the due diligence to understand what affect 
the change in this policy would have. This was an internal list 
so that we could do that type of analysis.
    Ms. Owens was not affected by the policy, and----
    Mr. Hice. She was initially. She got put back on, but she 
was.
    Mr. Gleicher. Congressman, these are actually two separate 
points. So, she was on the list, along with a number of other 
people, because we wanted to understand what affect the policy 
would have.
    Mr. Hice. So, look, if you are engaged in curation of 
speech, you are de facto a publisher rather than a platform, 
and that is part of the issue here. I understand there are 
algorithms and all this kind of stuff, all these words you are 
catching and all this kind of stuff. But the code also includes 
de-boosting and shadow banning, and again there have been 
multiple examples of that--Steven Crowder, Daily Caller, and 
others. I mean, this goes on and on.
    So doesn't even the algorithm itself indicate a bias that 
has been placed into the algorithms?
    Mr. Gleicher. Congressman, we are a platform for ideas. One 
of the things that is most important for us is to ensure that 
there is a space where people can speak safely and engage in 
public debate, robust public debate.
    Mr. Hice. And there is a problem with that, which makes the 
whole platform issue in itself debatable, as opposed to being a 
publisher.
    Mr. Gleicher. I think one of the critical things in 
creating a space for public debate is to ensure that when 
statements cross the line into violence or threats or clearly 
are hate speech, we are able to take action in that space to 
ensure that people can engage in a discussion.
    Mr. Hice. There is not that kind of conversation going on 
with Steven Crowder and Daily Caller. I mean, therein lies the 
problem. You can say what you want to say, but there are issues 
where conservatives are the ones oftentimes, most of the time, 
who are on the short end of this stick. One of your engineers, 
DeRuvo--I don't know how to pronounce his last name, but he 
actually made the statement, he said one strategy is to shadow 
ban so that you have ultimate control. The idea of shadow 
banning is that you ban someone and they don't know that they 
have been banned, because they keep posting but no one sees it, 
no one sees the content.
    This is taking place, and it is inexcusable. We have got to 
get to the bottom of it, and it doesn't stop there. There was a 
report in May 2016 of stories of interest to conservative 
readers on Facebook who were routinely suppressed by human news 
curators. So there is both a problem with the human and the 
artificial. Bias is the problem that has got to be addressed.
    Mr. Gleicher. Congressman, we have a range of systems in 
place to address conscious or unconscious bias, and I think by 
combining--we have rigorous training programs and automated 
systems, and most critically we have an appeals process because 
we are not going to get every one of these right. We will make 
mistakes.
    Mr. Hice. Well, it has got to get right as we are coming 
into another election cycle. We don't have time for appeal 
after appeal after appeal. These issues are problematic now, 
and I want to see--and my time has expired, but I want to see 
the solutions that you are coming up with in the political 
spectrum primarily directed against conservatives who do not 
have a voice. And this is not just toward Facebook but it is 
Twitter--we are seeing this kind of thing across the board. The 
transparency, we can talk about all these fancy things that we 
want to do, and I appreciate the effort that is being done, but 
the transparency and the outcome has still got to be resolved 
that this is indeed a platform and it is not a publisher where 
speech in itself is being censored.
    And with that, Mr. Chairman, I will yield. Thank you.
    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentle lady from Illinois, Ms. 
Kelly, for five minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    The Special Counsel's report detailed an extensive Russian 
social media influence campaign during the 2016 Presidential 
election, primarily coordinated by the Internet Research 
Agency. As part of this operation, the IRA purchased political 
advertisements on social media in the name of U.S. individuals 
and organizations. The intent of these ad purchases was to, 
quote, ``reach larger U.S. audiences.''
    Facebook has reported that the IRA purchased over 3,500 
political ads on its platform, totaling an estimated $100,000, 
before the 2016 election. Google likewise discovered that 
thousands of dollars in advertisements on YouTube, Google 
Search, Gmail, and other company products were purchased by 
accounts associated with the Russian government during the 2016 
election cycle. Political ads were also purchased from Russian 
Internet or physical addresses or using Russian currency.
    Mr. Gleicher--is it Gleicher? What is it?
    Mr. Gleicher. Gleicher.
    Ms. Kelly. Okay, I want to say it correctly. Can you 
briefly discuss the nature of these ads and give us an estimate 
on how many times they were viewed?
    Mr. Gleicher. Thank you, Congresswoman. One of the actually 
most important things that we have done in the wake of 2016 is 
a range of things to address the types of challenges you are 
talking about, particularly political advertising and ways that 
could be used by a foreign actor. I spoke in my opening 
statement a little bit about some of our transparency tools, 
but another piece that is important here is that we have 
imposed additional registration requirements and verification 
requirements, so that if someone wants to run political or 
issue ads in advance of an election, they have to verify that 
they are domestic actors, they have to provide an address, and 
they have to provide identifying information about themselves 
to tackle exactly the challenges you are talking about.
    Ms. Kelly. So can you give me the nature of the ads and 
give us an estimate of how many times they were viewed from 
before? Do you know?
    Mr. Gleicher. So, for the ads that were published around 
the context of 2016 and 2017, we released those to Congress 
with the ads and with some information about how many 
impressions each received, and that information is public. I 
don't have the specific numbers on me right now, but all of 
that information has been made public.
    Ms. Kelly. Okay. The purchase of political ads online has 
remained a tool of foreign election interference. In September 
2018, the Department of Justice charged a Russian national with 
conspiring to interfere with the U.S. political system. As an 
alleged accountant for a Russian foreign influence operation 
known as Project Lakhta, the defendant spent over $60,000 on 
Facebook ads and over $6,000 for ads on Instagram prior to the 
2018 midterm elections.
    Can you again--I missed your opening statement. Can you 
briefly discuss the steps you have taken since 2016 to increase 
transparency and accountability in online ad purchases?
    Mr. Gleicher. Certainly, Congresswoman. So first, in the 
context of transparency, what we have done is we have created 
an ads library where any ad that is political in nature, that 
is specifically about a particular candidate or involves a 
political issue, will be visible in public for seven years. 
People will be able to see who ran the ad, how much was spent 
on it, the types of people who saw it, and in particular they 
will be able to see if individuals or groups ran multiple ads.
    So, for example, one could see if someone was running one 
ad to one community saying their taxes would go up, and another 
ad to a different community saying taxes would go down. That 
type of transparency actually has already enabled a number of 
researchers to identify mismatches and concerning trends. One 
of our key goals has been to empower the public and researchers 
to be able to see some of these patterns.
    That is one piece of the work, and then the other piece is 
that verification work that I described to you, and what is 
most encouraging about that is we have seen instances of 
foreign actors since those controls were in place trying to get 
verified and then failing.
    Ms. Kelly. That is good news.
    In her statement, Federal Election Commission Chairwoman 
Ellen Weintraub testified to how foreign adversaries can 
contribute to a 501(c) organization that can, in turn, 
contribute funds to a Super PAC without disclosing the foreign 
source of money. Furthermore, a foreign-owned LLC can 
contribute to a 501(c) or a Super PAC without those entities 
ever disclosing the true owners of the LLC.
    What additional steps do you think are needed to limit the 
use of digital ads by hostile state actors to interfere in 
elections? And you can answer, Mr. Kane can answer, or Mr. 
Salgado, or all of you.
    Mr. Kane. Ma'am, thank you very much for that question. It 
is a very important point. Similar to Facebook and Twitter, we 
have a very robust and rigorous process for those who seek to 
purchase political ads. The process takes about a week, and if 
an organization or an individual doesn't have an FEC I.D., it 
involves the U.S. Postal Service and getting forms notarized. 
We have built a lot of friction into the process to deter bad 
actors.
    Once an ad is certified to run political ads, it is 
available and searchable. You do not have to have a Twitter 
account to see what political ads are running, who paid for 
them, and the impressions of their tweets and information like 
that. That information is all available, and it is going to 
stay up for an indefinite period of time.
    Ms. Kelly. I am out of time, so I don't know if you want 
Mr. Salgado to answer.
    Mr. Salgado. I am certainly happy to answer that, as well. 
We also have the same sort of verification process for election 
ads that requires the proof of identity and the various numbers 
that show that they are campaigns. We are very live time when 
an ad is actually displayed. We have the ability for the user 
to see who is behind the ad. So when it is displayed, it would 
either be displayed underneath the ad saying who actually is 
the purchaser of the ad, or they will be able to click through 
and easily find it.
    We also have a transparency report about the ads so that 
even if you were never served an ad, you can actually go and 
look at spends by different purchasers of ads and get a pretty 
good deep dive into what sort of content is being displayed 
through the different campaigns.
    Mr. Lynch. The gentle lady yields.
    The Chair now recognizes the full committee Ranking Member, 
the gentleman from Ohio, Mr. Jordan, for five minutes.
    Mr. Jordan. I thank the Chairman.
    Mr. Kane, does Twitter shadow ban?
    Mr. Kane. No, sir.
    Mr. Jordan. Last summer, were there accounts, were there 
Twitter accounts that were not being auto-suggested?
    Mr. Kane. Yes, sir. There were approximately 600,000 
accounts across the platform that were not auto-suggested. Once 
you click Search, the accounts that you were searching for came 
right up. But we identified that bug and fixed it within about 
24 hours, and then publicly explained exactly what happened 
with regard to that issue.
    Mr. Jordan. Six-hundred thousand?
    Mr. Kane. I apologize; 600,000. Yes, sir.
    Mr. Jordan. How many total Twitter accounts are there?
    Mr. Kane. Approximately--we have about 330 million monthly 
active users.
    Mr. Jordan. Three-hundred thirty million, but only 600,000 
had this auto-suggest feature not work; is that right?
    Mr. Kane. Yes, sir, that is my understanding.
    Mr. Jordan. How many of those 600,000 were Members of 
Congress?
    Mr. Kane. I believe the number was approximately four.
    Mr. Jordan. Do you know who those four were?
    Mr. Kane. I believe one was your account. I believe 
Congressman Meadows, Congressman Nunes, and I can't recall the 
fourth off the top of my----
    Mr. Jordan. Mr. Gaetz.
    Mr. Kane. Yes, sir, that is correct.
    Mr. Jordan. So only 600,000 out of 330 million. There are 
435 members of the House, and 100 members of the Senate, 535 
accounts. But four of them had this happen to them, and they 
just happened to be four Republicans, four conservative 
Republicans. Was that just an accident?
    Mr. Kane. Yes, sir.
    Mr. Jordan. Total accident.
    Mr. Kane. Yes, sir, and that is exactly why we fixed the 
problem.
    Mr. Jordan. Okay. You can assure this committee that there 
is no shadow banning that ever takes place with Twitter 
accounts?
    Mr. Kane. Yes, sir. Twitter does not shadow ban.
    Mr. Jordan. Okay. So, I think you said earlier in your 
opening testimony 99 million Tweets were sent last election 
cycle; is that right?
    Mr. Kane. Yes, sir. Between March and November of last 
year, there was approximately 99 million tweets associated with 
the U.S. midterms.
    Mr. Jordan. So four Republican accounts had a problem with 
them that made it difficult for people to access those accounts 
during that timeframe; is that right?
    Mr. Kane. Yes, sir. We provided to the committee--we 
provided information in terms of the follower graphs over a 
period of time, and we noticed no impact whatsoever in terms of 
the amount of followers that each of those accounts received 
over time.
    Mr. Jordan. They grew?
    Mr. Kane. Yes, sir.
    Mr. Jordan. That is right, they did grow. They actually 
grew during the time that you were actually making it difficult 
for people to access those four accounts. What is interesting, 
once you fixed the problem, they grew a lot faster. So there 
may have been an impact.
    Mr. Kane. Sir, it is difficult to determine. There were a 
number of Members of Congress who were talking about that 
issue, which could generate more interest and lead to more 
followers. It is difficult to determine motives.
    Mr. Jordan. Has it happened since?
    Mr. Kane. Not that I am aware of, sir.
    Mr. Jordan. Were there any Democrats that had their 
accounts--the same thing happen to them?
    Mr. Kane. Sir, with 600,000 accounts worldwide, that 
accounts for a number of views across the ideological spectrum. 
And so I feel very----
    Mr. Jordan. No, no. I meant--fair enough. Democrat officer 
holders.
    Mr. Kane. I don't recall, but I would be happy to followup 
for the record. I know that there was a few individuals who, at 
the state level, were of the Democrat Party that were running. 
I don't have those specific names, but I would be more than 
happy to see what we can provide for the record.
    Mr. Jordan. Mr.--is it Gleicher? Mr. Gleicher?
    Mr. Gleicher. Yes, Congressman.
    Mr. Jordan. I think earlier you said that you would, when 
you have bad actors, they are removed, their comments or 
whatever are taken down. Who defines who the bad actors are?
    Mr. Gleicher. Thanks, Congressman. Specifically, there I 
was talking about actors that we see who are engaged in 
coordinated inauthentic behavior, which is the coordinated use 
of fake accounts and other assets to manipulate people, and in 
particular to deceive users about who they are or what their 
purpose is.
    Mr. Jordan. Okay.
    Mr. Kane, same question. Bad actors on Twitter, who defines 
who is a bad actor and who is not, and what happens with those 
accounts, with those individuals?
    Mr. Kane. Yes, sir. We have a number of policies to support 
the conversational health of Twitter. We have clearly defined 
policies on fake accounts. We have clearly defined policies on 
spam. So it is a broad range of issues as we continue to focus 
on improving the health of the conversation. It is not just one 
particular area.
    Mr. Jordan. Thank you.
    Mr. Chairman, I yield back.
    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
DeSaulnier, for five minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Thank you for this 
hearing.
    Mr. Galvin, thank you for your years of service. Given your 
years and how diffuse our oversight is, and given what you have 
heard today from these three companies that have a net worth 
and financial resources greater than most states, how do we 
hold them accountable? This is all nice to hear, but, quite 
frankly, people don't trust the three of you the way they did 
five or 10 years ago in your organizations. They don't trust 
Congress very well, either.
    So in a diffuse election process, how do you as an election 
overseer, who has seen years of traditional miscommunication, 
how do we make sure that we have the right oversight 
nationally?
    Mr. Galvin. Well, it is very hard. Obviously, at the same 
time we want to protect people's freedom of speech, and it has 
been a problem that pre-dates the particular manifestation that 
this represents.
    I think this hearing is a good start. As you know, a number 
of national spokespersons and candidates for president have 
suggested breaking up some of these entities. I am not sure 
that is necessarily the solution, although it is a reasonable 
suggestion to discuss.
    I think I am very focused on the 2020 election because I 
think that is going to be defining in terms of policy going 
forward on elections. You are quite correct in saying that the 
whole situation has changed dramatically, certainly over my 
tenure. I think the question is what kind of scrutiny is going 
to be provided, and the scrutiny is not simply over how they 
use their platforms, it is going to be how people use them and 
what they do about it.
    I suppose the best solution immediately is disclosure. I 
think the Congress going forward has a role to play in terms of 
monitoring not only their activity but, as I mentioned earlier, 
the activities of some of the bureaucracies that interact with 
the states, and the activities of the states.
    While the states are sovereign states when it comes to 
election issues, nevertheless we want to make sure that states 
are performing correctly and adequately in terms of equipment 
and the maintenance of their data bases.
    So I think in the short run--and I made a big point 
earlier, and I will recite it again--we have 18 months now left 
to this election, and the election is underway for all intents 
and purposes. I think regular scrutiny and updates, whether it 
is on equipment, preparation, certification, or conduct, is 
necessary. There has to be some mechanism by which all of these 
things are reviewed on a regular basis, and I think the 
Congress can contribute to that, I really do. Whichever point 
of view is represented, having that scrutiny out there for all 
of us I think is going to be helpful to making sure the whole 
process is transparent.
    Mr. DeSaulnier. I appreciate that, Mr. Secretary.
    To the three companies, as someone who moved from Boston to 
San Francisco in the 1970's, I have been to all your 
headquarters. I have been very proud of you as part of the 
culture of San Francisco, but my relationship has soured 
because of this and because of other things, and this is a real 
defining time for all three of you, and I think you are all 
aware of this, about trust.
    In your innovation, we had an earlier hearing about facial 
recognition, and all three of us were there, and I hear you are 
inhibiting innovation if you are a policymaker and you question 
tech companies at all. And now you are here. I wish there was a 
way we could work with you so that we all were on the right 
page.
    Having said that, and this is directed to Mr. Kane, MIT has 
done a study not long ago that looked at false rumors, negative 
rumors on your platforms, all of social media, and how quickly 
that goes out. There is something about human nature that likes 
to--it is just like the car crash. There is certainly a lot of 
research and books that have been written about how you make 
money off of--I mean, in the newspaper business it used to be 
``if it bleeds, it leads.'' Your models are much more 
sophisticated.
    So my question is there are human factors--the National 
Labs study human factors for the Secret Service, for public 
safety, and for NASA. We are learning more and more about how 
the mind works. You folks are spending a lot of money on that, 
to make more money.
    How do we incorporate human factors as we anticipate, not 
just identify, somebody who is on your platform or using your 
infrastructure to affect democracy and elections? How do you 
sort of go a step forward as related to the MIT study? The 
quote I have here as part of that study, on the negative 
effects and rumor cascades: ``This implies that misinformation 
containment policies should also emphasize behavioral 
intervention, like labeling, and incentives to dissuade the 
spread of information, and looking into human factors in 
neuroscience.''
    So do you have any response, any of you, to that? Mr. Kane 
to begin with.
    Mr. Kane. Yes, sir. Thank you very much for that question. 
Partnerships are absolutely vital for the work that we do to 
better understand the current threat, which is always evolving, 
and to help better inform our policies and product changes. 
Just as recently as this week, Oxford released a study that 
found, with regard to the conversations around the elections in 
the EU, that less than four percent of tweets shared 
information from low-quality content. I refer to the Oxford 
study for their definition of low-quality news content. So we 
are clearly making significant progress as we continue to fight 
platform manipulation, as we continue to clean up the platform 
and develop new policies around fake accounts and other areas 
as well.
    Mr. DeSaulnier. Mr. Kane, maybe I didn't communicate this 
well, but the MIT report is more about you looking at 
behavioral trends and human factors. You make money off of--all 
of you, as I understand it, make money off of oftentimes when 
people are upset. You may not be doing that deliberately. So in 
this instance, you want to identify people who are spreading 
false rumors.
    So the MIT study, as I read it, is looking at that larger 
tendency, that people like negative news. So the question was 
what can you do about that, not specifically as to individual 
cases but more globally.
    Mr. Kane. Yes, sir. We are looking at developing four key 
indicators to help measure conversational health. You can 
measure the temperature of your body to gauge how healthy you 
are, but we want to try to better measure the health of the 
public conversation.
    There are really four criteria: one is shared attention; 
two being shared reality; three being variety of opinions; and 
four being receptivity. So we are constantly working with the 
research community to help better gauge how we can modify our 
systems to support a healthy conversation.
    Mr. DeSaulnier. Okay. I will just conclude. Thank you, Mr. 
Chairman, for the indulgence.
    For me, as somebody who respects innovation and respects 
what you have done from a Bay Area perspective, all of us would 
agree that if history looks back and looks at these companies 
as contributing to the lack of trust in American democracy, 
that is a hell of a legacy we will all live with.
    Mr. Lynch. The gentleman yields.
    Just using a little bit of traditional news time, I just 
want to clarify shadow banning. You basically ban someone but 
you don't let them know that you are banning them; right?
    Mr. Kane. That is my understanding of the definition, and 
that is a practice that Twitter does not do.
    Mr. Lynch. So you shadow banned four Members of Congress?
    Mr. Kane. No, sir. What occurred was in the auto-complete 
feature in Twitter, when you go to type in the name of an 
account that you want to see on Twitter, you had to click 
Search to actually search for the content. Certain accounts 
were not automatically suggested. You could easily find the 
accounts you were looking for by clicking Search.
    Mr. Lynch. But you couldn't find these four folks.
    Mr. Kane. No, sir. You could by clicking Search.
    Mr. Meadows. Mr. Chairman----
    Mr. Lynch. Go ahead.
    Mr. Meadows. Mr. Kane, listen, this is not our first rodeo 
together. I assume you were----
    Mr. Lynch. I am going to recognize you for five minutes.
    Mr. Meadows. All right. Thank you.
    So, Mr. Kane, you are sworn in, right?
    Mr. Kane. Yes, sir, I am.
    Mr. Meadows. So when you found the fact that we were not 
auto-suggesting, as you would say, were we treated any 
different than the other Members of Congress at that point?
    Mr. Kane. Sir, when we found the feature, we worked to 
immediately correct it.
    Mr. Meadows. So you found it on your own?
    Mr. Kane. Sir, I can't recall the exact source----
    Mr. Meadows. You prepared for this. You knew I was going to 
be here. So how did you find the problem, Mr. Kane?
    Mr. Kane. Sir, my work is focused on the integrity of the 
United States elections, and that is my primary----
    Mr. Meadows. But you anticipated that you would have to 
answer this question today; didn't you, Mr. Kane?
    Mr. Kane. Oh, absolutely. Certainly. Yes, sir.
    Mr. Meadows. Okay. So when you did your research and you 
looked at this, at what point were four Members of Congress 
treated different than the other 531 Members of Congress?
    Mr. Kane. Sir, when this was brought to our attention, it--
--
    Mr. Meadows. How was it brought to your attention?
    Mr. Kane. I believe it was a media article that----
    Mr. Meadows. So you didn't find it on your own, because 
that is what you just told Mr. Jordan a few minutes ago, that 
you found it on your own, because you found it the same way I 
did, which was reading about it in Vice News. Didn't you find 
it that way?
    Mr. Kane. Sir, I believe so, and that was my----
    Mr. Meadows. Okay, but you didn't tell Mr. Jordan that. You 
indicated that you found it and fixed it in 24 hours.
    Mr. Kane. Sir, that was certainly not my intent to indicate 
that at all. When it was brought to our attention, it was 
promptly fixed----
    Mr. Meadows. Okay, and how was it brought to your 
attention? You raised your right hand.
    Mr. Kane. Yes, sir.
    Mr. Meadows. How was it brought to your attention?
    Mr. Kane. Yes, sir. If I recall correctly, it was media 
reports. I am certainly happy to go back----
    Mr. Meadows. So how long did it go on before the media 
reported it?
    Mr. Kane. Sir, I am going to have to go back to our team to 
make sure we provide----
    Mr. Meadows. So it is your sworn testimony that you don't 
know the answer to that question today?
    Mr. Kane. Sir, that is correct. I don't have that specific 
information available.
    Mr. Meadows. That is not the question I asked. When you 
found the problem, did you analyze how long it had been going 
on with Members of Congress? Did your Twitter team figure out 
how long it had been going on?
    Mr. Kane. Sir, I am going to have to check with our team to 
make sure we give you a complete answer on that.
    Mr. Meadows. All right. So let me go on a little bit 
further, then. If indeed this is the case, how often do you 
change your algorithms?
    Mr. Kane. Sir, we are constantly working to improve our 
systems to support the conversational health, particularly in 
response to----
    Mr. Meadows. How do you define what conversational health 
is?
    Mr. Kane. Sir, as I indicated in the previous----
    Mr. Meadows. I got those four things.
    Mr. Kane. Yes, sir.
    Mr. Meadows. Who is the determinant of that?
    Mr. Kane. Sir, this is why we are working with outside 
researchers, to help us with----
    Mr. Meadows. Because Mr. Galvin suggested that maybe you 
ought to be broken up. Listen, what you are finding is the 
wild, wild west, and I am all for the wild, wild west and 
freedom. But the minute that you start putting your hand on the 
scale of freedom and justice to tilt it one way or another, 
quite frankly, we have to act as Members of Congress. It may be 
two very different motives; but, Mr. Kane, let me just say 
this, is you know that four conservative members were treated 
differently with Twitter. Do you not know that?
    Mr. Kane. Sir, I am well aware that four conservative 
members of the U.S. Congress did not have their accounts auto-
completed.
    Mr. Meadows. And so when did you fix the problem? What was 
the day?
    Mr. Kane. I don't recall the exact date. I believe it was 
last May or June. I don't recall the exact day.
    Mr. Meadows. All right. Can you get back with us?
    Mr. Kane. Yes, sir, I can.
    Mr. Meadows. Because--and you can let us know how long that 
practice had been going on?
    Mr. Kane. Yes, sir. We will certainly do whatever we can to 
provide any additional information above and beyond what we had 
released publicly----
    Mr. Meadows. That is not the question I asked.
    Mr. Kane. Yes, sir.
    Mr. Meadows. I said obviously if you have all these 
wonderful analytics that are going to find Russians, you can 
figure out how long----
    Mr. Kane. Yes, sir.
    Mr. Meadows [continuing]. the auto-populate for four 
Members of Congress----
    Mr. Kane. Yes, sir. You have my commitment to work with you 
and your staff to make sure we provide a complete answer.
    Mr. Meadows. All right. So here is the other thing that I 
want to go back to, Mr. Kane, because the problem that I have 
with this is the Chairman is talking about shadow banning, and 
you say that you don't do it. We don't know what you do and 
what you don't do; because, quite frankly, it took Vice News, 
who is normally no friend of conservatives, to actually report 
on this, and that is when we found out about it, that is when 
you say you found out about it.
    Are you aware of any current Twitter employees or previous 
Twitter employees who have shared information with the public 
on how to affect the Twitter followers and engagement of people 
that are on Twitter?
    Mr. Kane. Sir, as I sit here today, I have no knowledge of 
that.
    Mr. Meadows. All right. Have you investigated that 
internally?
    Mr. Kane. Sir, I have not. I am happy to----
    Mr. Meadows. Has your team investigated it? You are here 
testifying for Twitter.
    Mr. Kane. Yes, sir.
    Mr. Meadows. So I assume you are speaking for Twitter as a 
whole----
    Mr. Kane. Yes, sir.
    Mr. Meadows [continuing]. not for Mr. Kane.
    Mr. Kane. Yes, sir, and not that I am aware of, but I am 
happy to followup----
    Mr. Meadows. So you haven't looked at whether you have 
actually either a current or previous employee has tried to 
manipulate information by allowing people to understand your 
algorithms maybe a little bit more intimately than a Member of 
Congress?
    Mr. Kane. Sir, I have no knowledge of that, and that is why 
I want to make sure I followup with you, to provide a complete 
answer.
    Mr. Meadows. Mr. Gleicher, let me come to you. You said 
earlier about you have an automated algorithm that will stop 
certain types of speech, and then you have individuals, I 
think, when I came in. Is that correct?
    Mr. Gleicher. Congressman, at the beginning what I was 
talking about, we have an automated system to detect and remove 
fake accounts, accounts that----
    Mr. Meadows. Yes, but I am talking about content.
    Mr. Gleicher. If we are engaged with content and we do have 
algorithms that help surface content, and for certain specific 
types of content--for example, terrorist content--algorithms 
will take care of that----
    Mr. Meadows. I get that. So let me go back. We are talking 
about free speech, campaigns, all that kind of stuff. Why 
would, on any of your platforms, why would Marsha Blackburn's 
campaign thing that had to do with a life issue have been 
banned, or at least withdrawn? Was that on Facebook?
    Mr. Gleicher. Congressman, in that context, we have humans 
that review when we are taking a content action. It depends a 
little bit on whether it is advertising or organic. But one of 
the things that we have seen very clearly is we are not going 
to be perfect. We make mistakes.
    Mr. Meadows. Okay. But here is the thing. When you are 
taking down political campaign ads, every minute matters. And 
for you to have someone back there assuming--so you are 
admitting you made a mistake with Ms. Blackburn.
    Mr. Gleicher. We make mistakes, Congressman.
    Mr. Meadows. You answered a question I didn't ask. Did you 
make a mistake by taking down now Senator Blackburn's ad? Did 
Facebook make a mistake? Yes or no?
    Mr. Gleicher. We did not, Congressman.
    Mr. Meadows. Oh, so it is----
    Mr. Gleicher. We didn't take it down, Congressman. My 
apologies. I am not fully aware of the details of this specific 
incident.
    Mr. Meadows. So when did it--if you didn't take it down, 
who did? Are you saying that your automated system took it 
down? Turn around and talk to your counsel so you can give me 
an honest answer, I guess.
    Mr. Gleicher. Thank you, Congressman.
    I am not aware of us taking down an ad by Marsha Blackburn, 
from Marsha Blackburn's office, sir.
    Mr. Meadows. All right. Will you go back and research that?
    Mr. Gleicher. Surely.
    Mr. Meadows. They pick up on stuff that comes from the 
left, we pick up on stuff from the right, banning of Candace 
Owens, other people. When you do that, let me just tell you, 
the days of freelancing on this and having somebody stick their 
finger up and figure out whether they are going to take them, 
they are over, I am here to tell you. And even if it takes 
extreme measures, you have now collided with a bipartisan issue 
for different reasons, and we will make sure that we do that.
    So actually, I guess, Mr. Kane, you should have spoken up. 
It was Twitter that took it down, wasn't it?
    Mr. Kane. Yes, sir, and we publicly apologized for that.
    Mr. Meadows. All right. So you made a mistake.
    Mr. Kane. We did.
    Mr. Meadows. So who made the decision to take it down?
    Mr. Kane. I don't have the specific name of the individual.
    Mr. Meadows. So you have individuals making determinations 
on political ads?
    Mr. Kane. Yes, sir, we do.
    Mr. Meadows. Okay. So let me just tell you--I will say the 
same to you. The days are over with, and you had better come up 
with a plan to this Chairman on how you are going to fix it, 
how you are going to stop Russians, how you are going to make 
sure that we are fair with all of this, because I can tell you 
it is a real problem.
    I appreciate the gentleman's generosity with the clock.
    Mr. Lynch. The gentleman yields back.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Gosar, for five minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    We are going to stay on the same topic, because as a 
business you have some responsibilities. So let's go into this.
    An algorithm is only as good as the people that design it. 
Is that true, Mr. Kane?
    Mr. Kane. I would agree with that assessment. Yes, sir.
    Mr. Gosar. How about you, Mr. Salgado?
    Mr. Salgado. I think that is essentially true.
    Mr. Gosar. How about you, Mr. Gleicher?
    Mr. Gleicher. I would agree.
    Mr. Gosar. Okay. So let me ask you a question. I want each 
one of you to describe the typical person creating an 
algorithm.
    Mr. Gleicher, describe age, where they are at, mindset, 
background, education.
    Mr. Gleicher. Congressman, we have a pretty diverse team. 
The teams that work on our algorithms are based in cities 
around the world. I know engineers that----
    Mr. Gosar. Okay, so let me ask you a question. Young? Under 
30?
    Mr. Gleicher. Congressman, I have worked with engineers 
that are quite young. I have worked with engineers that are 
older----
    Mr. Gosar. I am asking for a typical individual with 
algorithms. I am very aware of algorithms. I have a science 
background. I have a big math background, so I am very aware of 
this. So give me a typical portfolio of that person. Describe 
that person for me.
    Mr. Gleicher. I don't have a specific description for the 
sort of median individual who works on these, Congressman, but 
I would say I personally have worked with a number of our 
engineers, a wide range of our engineers, on some of the 
algorithmic work, and I see engineers that are older, younger, 
from a range of different backgrounds. Diversity is----
    Mr. Gosar. For the majority of them, they are younger.
    Mr. Gleicher. I can't speak to that, sir.
    Mr. Gosar. How about you, Mr. Kane?
    Mr. Kane. Very similar to Facebook. We have a very diverse 
work force. We have engineers around the world. I don't have 
any specific data with regard to average age. I am more than 
happy to look into that and followup----
    Mr. Gosar. And education, I am looking for education too.
    Mr. Salgado, how about you?
    Mr. Salgado. I am not aware of the demographics of the 
engineers who work on the algorithm.
    Mr. Gosar. Well, the reason I ask you that is that when you 
have something of this magnitude that is this influential, you 
want to know that work force. You want to know the cross-
sectional application.
    So my question comes back to doesn't it bother you that 
this is a key component that you ought to be looking at, their 
political bias? Wouldn't you agree, Mr. Gleicher?
    Mr. Gleicher. Sorry. Could you restate the question?
    Mr. Gosar. Yes. This is that position that you ought to 
know that this person is unbiased. True?
    Mr. Gleicher. Congressman, I have found that everyone has 
some form of bias or unconscious bias.
    Mr. Gosar. Oh, there you go. Now, I am glad that you 
brought that up. Now that you know that everybody has an 
inherent bias, what is your correction factor? You were talking 
to Mr. Meadows in that regard. You couldn't give us how long it 
was because you didn't do the proper followup.
    So let me ask you again. What does that background--what do 
you do to assert that there is no bias with those algorithm 
people?
    Mr. Gleicher. Thank you, Congressman. What I would say is 
the first step is we recognize that everyone walking into a 
system like this and building systems is going to have some 
bias. We try to build systems to manage that, exactly as you 
are saying.
    Mr. Gosar. What is your review process?
    Mr. Gleicher. A couple of things that we do. First, we 
have--we make all the guidelines that the algorithms are 
implementing public so people can see what the rules are and 
can understand when we take action and when we don't.
    Second, we have an appeals process so that if we make 
mistakes, then they can be reviewed and we can take action to 
resolve them quickly.
    And I would say the third, which is particularly important, 
is we have a wide range of partnerships, people that we work 
with and consult with on the consequences of algorithmic 
developments or other steps that we are taking, to make sure 
that we are understanding the consequences of what these steps 
might be.
    Mr. Gosar. Mr. Kane, do you want to address that?
    Mr. Kane. Sir, very similar to our colleagues at Facebook. 
We are all human, but Twitter's purpose is to serve the public 
conversation, not just any particular segment of the 
conversation but the broader conversation.
    Mr. Gosar. I get it, we are all human. But once again, when 
the impetus is that this is a key position that has dramatic 
influence as to how and who is implicated by that, wouldn't you 
agree with me that this is a core part that you would really 
want to focus on?
    So, for example, if I am a surgeon, to err is human, so I 
want to minimize my chances of error over and over and over 
again. So I surround myself with good people. I make sure that 
they are up to par on protocols. You should be doing the same 
thing. That is what I am getting at, and it seems like there is 
a failure here. So please keep describing what you are talking 
about.
    Mr. Kane. Yes, sir. Our teams are consistently working to 
improve our product and make sure that it is, in fact, serving 
the public conversation. There are a number of actions that we 
take to constantly work this. I can say for every policy or 
product decision, going into the room I do not know who is a 
Democrat, who is a Republican, who is an Independent. Those 
views don't matter when we are building and designing our 
systems.
    We are here to support the public conversation. That is 
what we seek to do every day, and I am very proud of the work 
my colleagues do.
    Mr. Gosar. Well, once again, we saw a problem here. To me, 
having been alerted, if you had followed good business 
protocols here, you would have discovered this before being 
advised that it was happening. That is my process here.
    Mr. Salgado, how about you?
    Mr. Salgado. It is similar for Google. There is no place 
for political bias in the algorithms, and we make sure that 
that is the case. So in addition to the 200-plus factors that 
go into our Search algorithm, for example, we also have raters 
who actually check actual Search results against guidelines of 
what we expect--the quality, the relevance, the authoritative 
Search ranking. Where we see a problem, we are able to adjust 
the algorithm. So it is a combination of good engineering with 
very discrete and detailed, nuanced Search algorithm components 
with human review and results, and as a result of this we make 
changes to the algorithm thousands of times in a year. So it is 
very carefully calibrated and changes with the times and with 
trends, and with the culture.
    Mr. Gosar. Would the Chairman indulge me for one last 
question?
    So, for the last couple of Congresses--this is coming back 
to you, Mr. Galvin--I pushed legislation that would prohibit 
foreign nationals from cheating our system and would amend the 
Federal Election Act of 1971 to require the disclosure of the 
credit verification or the CVD and billing address for all 
online contributions. For those that still use cash, the CVD is 
that 3-digit code on the back of the credit card. As technology 
advances, we must continue to stay ahead of the curve, 
thwarting those who wish to inappropriately influence our 
political process.
    Do you think this is a good recommendation?
    Mr. Galvin. I already said I think transparency is the goal 
here, whether it is the issues you have been speaking to with 
the social media or the election operations itself. Certainly 
when it comes to campaign contributions, that is clearly the 
case. The Chair of the FEC talked about dark money earlier 
before you were here in her testimony and her answers to 
questions.
    So I think whatever perspective you are coming from, 
whatever part of the overall issue of conducting the election, 
both the campaign and the election itself, I think we need to 
have as much transparency as possible, and I think the Congress 
has a key role to play in providing that, because there is no 
other entity that is going to have a greater ability to look 
into and find out what is going on. No other entity could get 
all of the mix of players that you have had here today, the 
regulators, the government officials, the private officials 
together in a public forum. That has to continue. This can't be 
a one-time-only show.
    Mr. Gosar. Thank you.
    Mr. Chairman, I really would like to see the answers as to 
that documentation on how, who, and what the overview is of all 
those who create the algorithms, please. Thank you.
    Mr. Lynch. If I understand the request from the gentleman 
from Arizona, you want them to substantiate in each of those 
instances where you said they need to go back. Any of the three 
of you, we expect answers in that regard.
    Mr. Kane. Yes, sir.
    Mr. Lynch. Okay. So let me ask, we have had an opportunity 
to interview in various committees the Chief Operating Officer, 
Sheryl Sandberg with Facebook, and she said with respect to the 
Russian interference back in 2016 she admitted we were too slow 
to act on this, we should have seen it, we were slow to act on 
it. And then post-election reviews conducted by Twitter and 
Google, they had similar assessments. They reported that 
Russian activity was more widespread than previously known.
    The actions of meaningful information-sharing between your 
companies and the intelligence community was problematic in 
that instance. In April 2019, former Facebook Chief Security 
Officer Alex Stamos also told a reporter, quote, ``One of the 
biggest problems was a lack of cooperation between the public 
and the private sectors in 2016. It was nobody's job.''
    So, Secretary Galvin, do you ever hear from these folks? I 
mean, I know you got an assessment after 2016 that you weren't 
hacked successfully, and again in 2018 that was the assessment. 
But as far as regular communications in the run-up to 
elections, any----
    Mr. Galvin. No, my office has not.
    Mr. Lynch. Okay. How are things going in terms of 
information-sharing now, now that we have had these experiences 
in 2016 and 2018, with the intelligence community, and 
especially the FBI?
    Mr. Gleicher. Congressman, from our perspective I would 
just say that one of the really encouraging developments as we 
led into 2018 was the increased collaboration among industry 
with government and, quite frankly, with cybersecurity experts 
in civil society. In the 48 hours before the election, we in 
particular received a tip from law enforcement about a group of 
accounts that they believed were linked to Russian actors that 
we should look into. We took that information, we were able to 
run a six-hour investigation into it and remove it from the 
platform, which meant that the next day, literally on the eve 
of the vote, when Russian actors tried to trumpet those 
accounts, they had already been removed and the message had 
already been sent that government and the company were working 
together.
    We also had some important instances where we worked 
closely with our colleagues here, including a recent take-down 
involving networks based in Iran where we actually worked with 
Twitter and both of us were able, because of the collaboration, 
to identify larger scopes of those networks and do a more 
aggressive take-down.
    Mr. Lynch. Mr. Kane?
    Mr. Kane. I was just going to echo those sentiments. The 
relationship is very strong right now. We absolutely recognize 
the valuable partnerships that we have with the intelligence 
and law enforcement communities. It is strong now. We are 
looking at how can we improve those relationships moving 
forward in advance of 2020.
    Mr. Lynch. Mr. Salgado?
    Mr. Salgado. I concur with the statements of my colleagues 
here. We have very well-established routine information-sharing 
arrangements, security-to-security among the companies and with 
law enforcement, much more solid ground than we were on in 
2016.
    Mr. Lynch. Okay. Let me go back to the instance where Mr. 
Meadows and Mr. Jordan, Mr. Gaetz and--who else?--Mr. Nunes 
were treated differently than others, their accounts. How did 
that happen? Explain it to me. Was this an algorithm that sort 
of swept them up, or were there individuals that actually 
identified their accounts and then altered them in some 
fashion?
    Mr. Kane. Sir, we explained all this information publicly. 
But to summarize, what had occurred was for a number of the 
followers of these accounts that had been perhaps in violation 
of some rules in the past, that is what impacted that auto-
search function. As soon as we realized the problem, again, we 
immediately fixed it within 24 hours. I was on the phone with 
the head of our product. Our CEO was certainly made aware, and 
we prioritized shipping a fix and explaining everything 
publicly very quickly, and that is exactly what we did.
    Mr. Lynch. Okay. But it was Vice News that picked it up; is 
that correct?
    Mr. Kane. It is my understanding. Yes, sir.
    Mr. Lynch. That worries me. That worries me that--I mean, 
certainly, I probably didn't agree with anything that those 
members were----
    Mr. Meadows. Oh, certainly not.
    [Laughter.]
    Mr. Lynch. But still, it is free speech. Right now we have 
257 million Americans with smart phones, and everyone is mobile 
right now. So the scale of what can happen if you make a 
mistake, as you conceded, is enormous. So that cannot happen, 
that cannot happen.
    Mr. Kane. Yes, sir, I completely agree.
    Mr. Lynch. Yes, especially in the campaign context. That 
hurts our credibility as well. There are enough conspiracy 
theorists out there to damage the integrity just domestically, 
never mind foreign interference.
    Let's see, I have a minute-and-a-half left.
    So, changing algorithms or platforms can reduce visibility 
of some disinformation. But in the end, it is up to the user to 
believe or not believe a particular piece of content, and that 
was a report that we got from the Rand Corporation regarding 
the disinformation chain of Russian influence.
    I know in Finland they are getting bombarded in their 
election from Russia because of the proximity there, and they 
are engaged in sort of an education program, starting in their 
grade schools, to basically, I guess, build resilience among 
their population, their people, their kids, so that they are 
much more judicious and selective and scrutinizing in terms of 
the social media information that they are confronted with.
    Is there any--it seems to me very difficult to do something 
like that, but what are your thoughts on that?
    Mr. Kane. Sir, media literacy is a vital component to 
fighting misinformation and disinformation online. Twitter 
partners with a number of media literacy groups worldwide. We 
believe it is absolutely essential, and we are absolutely 
committed to promoting media literacy, and anything that we can 
do to work with this committee to expand media literacy 
programs, we are certainly happy to do so.
    Mr. Lynch. I didn't know if it was something you were--this 
is your world, and I would look to you to come up with the 
ideas, not Congress. This is your world. You created some of 
this problem, so it would be good if we got some direction from 
you in terms of what would work best.
    Mr. Kane. Yes, sir, and you have my commitment to do that.
    Mr. Lynch. Okay. I am going to yield to the gentleman.
    Mr. Meadows. I thank the Chairman.
    Just one followup question for the three of you.
    CDA 230; do you think that is a good law?
    Mr. Gleicher. Congressman, from my perspective, CDA 230 
gives us the space to be able to take action against hate 
speech and situations where content or activity on the platform 
might threaten the safety of users, and it also gives our users 
the space to debate and engage in the public discussion the way 
they would like. I think it is an important component of 
enabling the type of robust public discourse that we would like 
to see on our platforms.
    Mr. Meadows. Mr. Kane, the same question.
    Mr. Kane. I have the same identical answer as my colleague 
from Facebook. I completely agree with how he phrased it.
    Mr. Meadows. Mr. Salgado?
    Mr. Salgado. Absolutely, it is essential to promote free 
speech.
    Mr. Meadows. All right. I thank the gentleman for his 
courtesy. I yield back.
    Mr. Lynch. My pleasure.
    I would like to thank our witnesses.
    I see the gentleman from Tennessee, Mr. Cooper, has 
arrived, and I would yield--do you need a minute to gather your 
thoughts? Okay, you are good to go.
    Mr. Cooper. Thank you, Mr. Chairman. I apologize for being 
late.
    I am from a small state. There was a Twitter account that 
had 150,000 followers. It was listed early in the Mueller 
report. The account was called Tennessee--GOP. It was a Russian 
bot.
    What are we to think of things like that? Have you no 
algorithms to expose that? It was eventually cleared out, but 
in August 2017, long after the damage had been done, and long 
after lots of prominent people had retweeted what was on that 
robot site. It wasn't just a bot, it was a Russian robot--IRA, 
St. Petersburg. We have our own little Petersburg in Tennessee, 
but it is a small country village. It is not a major Russian 
city.
    So you said in your testimony that you get rid of deceptive 
stuff, and it all sounded good, but can you commit to getting 
rid of all the bots, all the deep fakes?
    Mr. Kane. Yes, sir. With regard to malicious automation, as 
I mentioned, Twitter identified and challenged 425 million 
accounts in 2018 suspected of engaging in malicious automation. 
I note for the first half of 2018, we identified and challenged 
approximately 232 million accounts. For the second half, that 
number went down to 194 million.
    We also, in the first half of 2018, we had 3.6 million 
reports of suspected spam. That number went down to 3.1 
million. So we had half-a-million fewer reports.
    So what we are seeing is that we are doing a much better 
job at disrupting these networks. We are doing a much better 
job at disrupting them early during the sign-up process, and we 
continue to improve our machine learning to focus on the 
conversation on the platform and cleanup malicious automation.
    Mr. Cooper. But you understand the different standard at 
work here. The billionaire founders of these companies, who 
should be rewarded for their amazing creativity, they don't 
keep their money in a bank that uses its best efforts to 
protect their wealth. They put their money in a bank that 
doesn't lose any of it, ever. Different standard, because they 
would be upset if just a few thousand dollars were missing. So 
there is a completely different standard here.
    I know this is a new technology, and we have to adjust. But 
just think of your founders and how careful they are, and why 
can't we have a safer, better standard? Because this isn't a 
Democratic site that was hugely embarrassing. This was a 
Republican site. It doesn't matter which party it is. Bots 
should not influence elections, especially Russian bots.
    Mr. Kane. I absolutely agree with you, and that is why we 
are also expanding our partnerships with both the RNC and the 
DNC and with Director Krebs' organization.
    Mr. Cooper. In the business world there is bank security. 
There are things like guarantees, warranties, money-back 
refunds. We are not hearing any of that sort of certainty that 
most regular people are used to.
    I would be happy to yield to the gentleman from North 
Carolina.
    Mr. Meadows. Well, I think the gentleman makes a perfect 
point. We are talking about best efforts. Actually, you are 
bigger than most of the big banks.
    Mr. Cooper. Completely.
    Mr. Meadows. So there has to be some kind of punitive 
measure.
    I yield back.
    Mr. Cooper. A final thing. Is there a button I don't know 
about on Google where I can go back and get the default 
setting, like the original Search before it has been corrupted 
by all my prior searches? I know you can eliminate some 
history, but on the laptop there is a default button where you 
can go back to the factory settings. I would love brand-new, 
fresh, virginal Google.
    I needed a black toilet for my house because it was built 
in the 1950's and they had a black toilet in there. For years 
afterwards, all I have been seeing are black toilet 
advertisements.
    [Laughter.]
    Mr. Cooper. This is wrong. We went ahead and got a white 
toilet. Why are we plagued with this? Why isn't there a default 
button?
    Mr. Meadows. It was wrong from the beginning.
    [Laughter.]
    Mr. Cooper. I agree, but my wife picked the house. It 
wasn't me.
    [Laughter.]
    Mr. Cooper. People are so deeply offended by this, and it 
may seem trivial but just a simple button to say the original 
Google, that is the one I bought.
    Mr. Salgado. I will take that back as a feature request. As 
perhaps some IT Desk help here, I would suggest you clear your 
cookies on your laptop and you may no longer be served those 
ads. I am not sure that has anything to do with Google, but I 
am happy to take that suggestion back. Thank you.
    Mr. Lynch. Okay. In closing, I just want to say that if you 
listen to FBI Director Wray, he has said that looking at the 
data from 2018, the midterms, that he felt that the Russians 
and others were using that as sort of a prep or--I forget the 
term he used, but as a practice session for the big show in 
2020 and that we should expect a major onslaught in the run-up 
to 2020.
    If we go back to the banking analogy, if we were banks, I 
would ask them to do stress tests on their systems, and that is 
what I would like you to do. Is there a way that we can stress 
test what we might expect the activity might be in the run-up 
to the election in 2020 so that we have a certain comfort level 
with whether or not we are going to be able to defend the 
integrity of our electoral system?
    My fear is that we will have a really close election and 
that the losing party will point to breaches or inconsistencies 
or hacks to disavow the results. We have seen that happen in 
other countries. Afghanistan is a good example. But there were 
millions of ballots that were falsified. But still, to this 
day, the dispute over that election undermines the credibility 
in some provinces of the sitting Prime Minister. I don't want 
us to be one of those countries in January 2021.
    I want to thank you all. I know Secretary Galvin has a 7:30 
flight, so whatever assistance I can give to get you to the 
airport on time. We appreciate all of your testimony, so I want 
to thank our witnesses for their testimony today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses, through the Chair, which will be forwarded to 
the witnesses for response. I ask our witnesses to please 
respond promptly, as you are able.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 6:29 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
